U. S. Department of Agriculture
  Office of Inspector General
         Audit Report



    Food and Nutrition Service’s
Fiscal Year 1997 Financial Statements
         Alexandria, Virginia




                        Audit Report No.
                        27401-11-Hy
                        May 1998
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                            OFFICE OF INSPECTOR GENERAL

                                 Washington D.C. 20250



   DATE:   May 21, 1998

REPLY TO
ATTN OF:   27401-11-Hy

SUBJECT:   Food and Nutrition Service’s Financial Statements
           for Fiscal Year 1997

     TO:   George A. Braley
           Acting Administrator
           Food and Nutrition Service


This report presents the results of our audit of the Food and Nutrition Service’s
(FNS) principal and combining financial statements for the fiscal year (FY) ended
September 30, 1997. The report contains our qualified opinion on the FY 1997
statements and the results of our assessment of FNS’ internal control structure
and compliance with laws and regulations.

Our qualified opinion was the result of the agency’s inability to substantiate
the reported amount of Food Stamp Program (FSP) recipient claims against
households. This has been a long-standing problem that we first reported in our
FY 1991 financial statement audit.     Our audit fieldwork has determined that
material internal control problems continue to exist in establishing and
reporting FSP claims. FNS made significant commitments in FY 1997 to address
this long-standing issue.    For example, FNS issued comprehensive review and
self-assessment guidance to regional offices and State agencies. This guidance
represents the common standards that FNS will use to provide overall assurance
for the management of the recipient claims process. FNS plans to be able to
provide assurances in three areas: (1) The accuracy of information presented on
the FNS 209, Status of Food Stamp Claims Against Households Report, (2) the
validity of the beginning or ending balance for the State agency, and (3) whether
significant backlogs exist for recipient claims’ referrals. During FY 1998, FNS
plans to use the guidance issued in FY 1997 to focus management reviews on
recipient claims. Also, during FY 1998, FNS plans to complete the evaluation of
the accuracy of State agency balances reported on the FNS 209 and ensure that
corrective action plans are developed for any identified weaknesses by
September 30, 1998.

During the course of the audit we also identified certain matters which, although
not material to the financial statements, warrant corrective action and will be
communicated to FNS management in a separate audit report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the corrective action taken or planned, including applicable
timeframes, on our recommendations. Please note that the regulation requires a
management decision to be reached on all findings and recommendations within a
maximum of 6 months from report issuance.




ROGER C. VIADERO
Inspector General
TABLE OF CONTENTS

CHAPTER 1 - EXECUTIVE SUMMARY     . . . . . . . . . . . . . . . . . . . . . .                               1

            Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                 1
            Results in Brief . . . . . . . . . . . . . . . . . . . . . . .                                  1
            Key Recommendations   . . . . . . . . . . . . . . . . . . . . .                                 4


CHAPTER 2 - REPORT OF THE OFFICE OF INSPECTOR GENERAL . . . . . . . . . . .                                 5


CHAPTER 3 - REPORT OF THE OFFICE OF INSPECTOR GENERAL
            ON INTERNAL CONTROL STRUCTURE . . . . . . . . . . . . . . . . .                                 7

            Finding No. 1       Internal Control Weakness on Food
                                Stamp Recipient Claims Still
                                Not Corrected . . . . . . . . . . . . . . . .                               9

                                Recommendation No. 1a . . . . . . . . . . . . 11

            Finding No. 2       Procedures for Reconciling Fund
                                Balances with Treasury Need to be
                                Strengthened . . . . . . . . . . . . . . . . 11

                                Recommendation No. 2a . . . . . . . . . . . . 13
                                Recommendation No. 2b . . . . . . . . . . . . 13

            Finding No. 3       Implementation and Oversight of the
                                State Option Food Stamp Program Needs
                                Improvement . . . . . . . . . . . . . . . . . 13

                                Recommendation   No.   3a   .   .   .   .   .   .   .   .   .   .   .   .   18
                                Recommendation   No.   3b   .   .   .   .   .   .   .   .   .   .   .   .   18
                                Recommendation   No.   3c   .   .   .   .   .   .   .   .   .   .   .   .   18
                                Recommendation   No.   3d   .   .   .   .   .   .   .   .   .   .   .   .   18
                                Recommendation   No.   3e   .   .   .   .   .   .   .   .   .   .   .   .   18
                                Recommendation   No.   3f   .   .   .   .   .   .   .   .   .   .   .   .   18

            Finding No. 4       Adjustment Needed to the Value of Food
                                Coupon Inventory Reported in
                                Note 4(c) . . . . . . . . . . . . . . . . . . 18

                                Recommendation No. 4a . . . . . . . . . . . . 19

            Finding No. 5       Trust and Deposit Liabilities, Non-Federal
                                Line Item Materially Misstated . . . . . . . 20

                                Recommendation No. 5a . . . . . . . . . . . . 21

            Finding No. 6       Accounts Payable Model Incorrectly
                                Applied to Determine FY 1997 Writedown
                                Factor for the FSP . . . . . . . . . . . . . 21


CHAPTER 4 - REPORT OF THE OFFICE OF INSPECTOR GENERAL
            ON COMPLIANCE WITH LAWS AND REGULATIONS   . . . . . . . . . . . 23




USDA/OIG-A/27401-11-HY                                                                              Page i
            Finding No. 1    FNS Violated the Food Stamp Act by Using
                             FSP Appropriated Funds for the State
                             Option Food Stamp Program . . . . . . . . . . 24

                              Recommendation No. 1a . . . . . . . . . . . . 26

            Finding No. 2    Audit Reports Disclosed Areas of
                             Noncompliance With Laws and Regulations . . . 26


CHAPTER 5 - ABBREVIATIONS   . . . . . . . . . . . . . . . . . . . . . . . . 30




USDA/OIG-A/27401-11-HY                                                Page ii
Food and Nutrition Service’s Fiscal Year 1997 Financial Statements
(Chapters 6 to 8 prepared by FNS)


CHAPTER 6 - FNS’ OVERVIEW OF FISCAL YEAR 1997 OPERATIONS AND RESULTS        . . . 32

            Introduction to the Agency . . . . . . . . .    . . . . .   . . . . 32
            Food Stamp Program . . . . . . . . . . . . .    . . . . .   . . . . 34
            Child Nutrition Programs . . . . . . . . . .    . . . . .   . . . . 38
            The Supplemental Nutrition Program for Women,   Infants,
            and Children . . . . . . . . . . . . . . . .    . . . . .   . . . . 40
            Commodity Assistance Programs . . . . . . . .   . . . . .   . . . . 43


CHAPTER 7 - FNS’ SUPPLEMENTAL INFORMATION FOR FISCAL YEAR 1997 OPERATIONS . 45

            Introduction . . . . . . . . . . . . . . . .    . . . . .   . . . . 45
            Food Stamp Program . . . . . . . . . . . . .    . . . . .   . . . . 46
            Child Nutrition Programs . . . . . . . . . .    . . . . .   . . . . 48
            The Supplemental Nutrition Program for Women,   Infants,
            and Children . . . . . . . . . . . . . . . .    . . . . .   . . . . 54
            Commodity Assistance Programs . . . . . . . .   . . . . .   . . . . 57


CHAPTER 8 - FNS’ FY 1997 FINANCIAL STATEMENTS AND NOTES . . . . . . . . . . 59

            Statement of Financial Position . . . . . . . . . .   . . . . . . 59
            Combining Statement of Financial Position . . . . .   . . . . . . 60
            Statement of Operations and Changes in Net Position   . . . . . . 62
            Combining Statement of Operations and Changes in
            Net Position . . . . . . . . . . . . . . . . . . .    . . . . . . 63

            Notes to   FY 1997 Financial Statements . . . . . . . . .   .   .   .   .   65
            Note 1 -   Summary of Significant Accounting Policies . .   .   .   .   .   65
            Note 2 -   Fund Balances with the U.S. Treasury . . . . .   .   .   .   .   72
            Note 3 -   Property, Plant, and Equipment, Net . . . . .    .   .   .   .   72
            Note 4 -   Commitments . . . . . . . . . . . . . . . . .    .   .   .   .   72
            Note 5 -   Equity of the U.S. Government and Net Position   .   .   .   .   75
            Note 6 -   Donated Commodities . . . . . . . . . . . . .    .   .   .   .   77
            Note 7 -   Non-Operating Changes . . . . . . . . . . . .    .   .   .   .   78
            Note 8 -   Operating Program Expense . . . . . . . . . .    .   .   .   .   78




USDA/OIG-A/27401-11-HY                                                      Page iii
                                  CHAPTER 1
                              EXECUTIVE SUMMARY

Purpose                  We have audited the accompanying principal and
                         combining statements of financial position of the
                         Food   and   Nutrition   Service    (FNS),  as   of
                         September 30, 1997, and the related statements of
                         operations and changes in net position for the year
                         then ended.    These financial statements are the
                         responsibility    of   FNS’    management.      Our
                         responsibility is to express an opinion on these
                         statements based on our audit.

                         Our audit objectives were to determine whether:
                         (1) The principal statements present fairly in all
                         material respects the financial position and results
                         of   operations   in   accordance   with   applicable
                         accounting principles; (2) FNS has an internal
                         control structure that provides reasonable assurance
                         of achieving its internal control objectives; (3) FNS
                         complied with laws and regulations for those
                         transactions and events that could have a material
                         effect on the principal statements; and (4) the
                         information and manner of its presentation in the
                         Overview of the Reporting Entity and Supplemental
                         Financial and Management Information sections was
                         materially consistent with the information in the
                         principal statements.

                         We conducted work at the FNS National Office in
                         Alexandria, Virginia and 4 of the 7 FNS regional
                         offices, 4 selected food coupon issuance points, the
                         Benefit Redemption Systems Branch in Minneapolis,
                         Minnesota, 2 of 12 Federal Reserve Banks (FRB), and
                         the food coupon printer and distributor.

                         The principal FNS programs are the Food Stamp Program
                         (FSP), Child Nutrition Programs, and the Special
                         Supplemental Nutrition Program for Women, Infants,
                         and Children (WIC). Congress appropriated FNS over
                         $43.3 billion for fiscal year (FY) 1997, over
                         73 percent   of   the  total   U.S.   Department   of
                         Agriculture budget.


Results in Brief         In our opinion, except for the effects of such
                         adjustments, if any, as might have been determined to
                         be necessary had we been able to assess the
                         reasonableness of the gross accounts receivable,
                         non-Federal, for the FSP, and the related Unexpended
                         Appropriations, Appropriated Capital Used, Operating
                         Program Expenses, Provision for Losses, and Notes 1D,
                         5, and 8, the financial statements present fairly, in
                         all material respects, the financial position of FNS
                         as of September 30, 1997, and the results of its
                         operations and its net position for the year then
                         ended, on the basis of accounting described in
                         Note 1A.

                         During FY 1997, FNS made progress in improving the
                         agency’s financial recording and reporting processes.
                         For example, FNS Data Integrity and Reporting Branch
                         of the Accounting Division became fully operational,

USDA/OIG-A/27401-11-HY                                                     Page 1
                         with responsibilities for internal review of both
                         internal and external financial reporting.        FNS
                         improved the preparation of its financial statements
                         in accordance with Office of Management and Budget
                         (OMB) Bulletin No. 94-01, Form and Content of Agency
                         Financial Statements.    In addition, FNS’ SF 133,
                         Report on Budget Execution was supported by FNS’
                         Agency Financial Management System (AFMS). However,
                         several material internal control weaknesses warrant
                         corrective action, as discussed in our report on FNS’
                         Internal Control Structure. One of these weaknesses
                         was identified in prior years while five were
                         initially identified in FY 1997.

                         •     FNS has not corrected its material internal
                               control   weakness   related   to  food   stamp
                               recipient claims which represents the material
                               portion of FNS’ account balance for gross
                               accounts receivable, non-Federal. In FY 1997,
                               this balance was based on the FNS 209, Status
                               of Food Stamp Claims Against Households
                               reports.    In our prior financial statement
                               audits, we reported that the FNS 209s were
                               unsupported, inaccurate, and incomplete. FNS
                               did   not   have   compensating   controls   or
                               procedures for providing relevant, sufficient,
                               and reliable data on which to base a reasonable
                               estimate of the account balance and its related
                               allowance for bad debt.        FNS’ accounting
                               records did not permit the application of
                               alternative procedures that would enable us to
                               satisfy ourselves as to the value of these
                               assets. As a result, we were unable to assess
                               the   reasonableness    of   the    more   than
                               $942.3 million included in the gross accounts
                               receivable, non-Federal, balance for the FSP.

                               FNS made significant commitments in FY 1997 to
                               address the long-standing issue with food stamp
                               recipient claims.     In FY 1997, FNS issued
                               comprehensive    review   and   self-assessment
                               guidance   to   regional   offices  and   State
                               agencies.   A total of 15 reports related to
                               reviews of the management of food stamp
                               recipient claims were available for review in
                               the four regions where audit work was
                               performed. The scope of six of these reviews
                               did not encompass all of the areas covered by
                               the review guidance and followup reviews need
                               to be performed.     According to the FY 1997
                               FMFIA report, FNS plans to focus management
                               reviews on recipient claims using this guidance
                               and complete the evaluation of the accuracy of
                               State agency balances reported on the FNS 209’s
                               during FY 1998.     In response to our issue
                               paper, dated February 11, 1998, FNS agreed to
                               ensure that corrective action plans are
                               developed for any identified weaknesses by
                               September 30, 1998. FNS has appointed a staff
                               member with extensive Food Stamp experience to
                               coordinate all of the Agency’s efforts related
                               to FNS 209’s.

                         •     FNS’ controls over reconciling with Treasury
                               records needs to be improved.   FNS adjusted


USDA/OIG-A/27401-11-HY                                                     Page 2
                               their general ledger to agree with external
                               reports they sent to Treasury without providing
                               evidence that these adjustments were always
                               supported. Additionally, FNS’ procedures did
                               not   fully    document   the    fund   balance
                               reconciliation process.     FNS asserted that
                               monthly,   a   six  step   reconciliation   and
                               identification process is performed to validate
                               Treasury information.    While the adjustments
                               made during FY 1997 did not have a material
                               effect on the agency’s fund balance, FNS should
                               ensure that the external reports are supported
                               by   their   accounting   system   and   detail
                               documentation at the time the reports are
                               submitted.

                         •     FNS’ AFMS procedures and State Option Food
                               Stamp Program (SOFSP) guidance were not fully
                               implemented. Our review of FY 1997 operations
                               disclosed that FNS did not record in AFMS the
                               issuance of almost $4.5 million in SOFSP
                               benefits for two States nor was a receivable
                               established or States charged interest for the
                               cost of borrowing these funds. FNS agreed to
                               reassess    their    accounting     procedures.
                               Additionally, FNS did not require States to
                               timely submit required reports showing actual
                               SOFSP issuance information.      FNS needs to
                               improve its controls and oversight of the
                               SOFSP.    In addition, the methodology for
                               allocating State funded benefits redeemed needs
                               to be modified.    As the SOFSP continues to
                               expand, there is potential, using the current
                               methodology, for material misstatement of the
                               FSP redemption account.

                         •     In the financial statements presented for
                               audit, FNS materially misstated the value of
                               food   coupons   in   inventory  presented   in
                               Note 4(c) because this value included coupons
                               printed under an FY 1998 serial number and
                               coupons-in-transit that were already a part of
                               States’ inventory.      Also, the amount FNS
                               reported for Trust and Deposit Liabilities,
                               Non-Federal was materially misstated. Although
                               aware of this misstatement, FNS did not
                               immediately    contact   Treasury’s   Financial
                               Management Service (FMS) to coordinate the
                               necessary   resolution    in  accordance   with
                               Treasury guidance. In addition, FNS did not
                               include Electronic Benefits Transfer (EBT)
                               obligations in the calculation of the accounts
                               payable writedown model for the FSP in FY 1997.
                               In response to these issues raised during the
                               course of the audit, FNS revised the amounts in
                               the financial statements and notes and agreed
                               to implement applicable procedures in the
                               future.

                         Our Report on Compliance with Laws and Regulations
                         contains a potential violation of the Anti-Deficiency
                         Act and instances of noncompliance with other laws
                         and regulations.




USDA/OIG-A/27401-11-HY                                                     Page 3
                         •     FNS expended FSP appropriated funds for the
                               SOFSP in violation of the Food Stamp Act. FNS
                               did not receive payment from two States at the
                               time of issuance, a violation of authorizing
                               legislation. As a result, when State benefits
                               were redeemed, Federal funds would have been
                               used to pay retailers for the authorized
                               transactions    resulting   in   a    potential
                               Anti-Deficiency Act violation. FNS disagreed
                               with our conclusions that a violation of the
                               Anti-Deficiency Act may have occurred.      FNS
                               requested a legal opinion from the Office of
                               the General Counsel on May 5, 1998, as to
                               whether FNS violated the Anti-Deficiency Act in
                               its implementation of the SOFSP.


Key Recommendations      FNS needs to continue its commitment to improving its
                         financial systems, processes, and reporting.       In
                         FY 1997, FNS made significant progress to strengthen
                         their internal control structure to provide a
                         financial management system that contains sufficient
                         discipline, effective internal controls, and reliable
                         data.   However, FNS’ efforts should include the
                         following.

                         •     Perform followup reviews of State’s claims
                               systems   that    did   not  encompass   the
                               comprehensive   review   and self-assessment
                               guidance issued in FY 1997.

                         •     Modify existing reconciliation procedures to
                               fully document the process used to reconcile
                               fund balances with Treasury and ensure that an
                               adequate audit trail exists.

                         •     Ensure that States remit, on a timely basis,
                               payment for the cost of all benefits issued and
                               related administrative fees.

                         •     Provide improved oversight of the SOFSP by
                               revising accounting procedures related to both
                               administrative and benefit costs and require
                               that actual issuance be reconciled with funds
                               received from States to pay for benefits and
                               administrative costs on a more frequent than
                               annual basis.

                         •     Require   that   the   coupon   printer  and
                               distributor’s delivery records be used to
                               determine   the   actual   amount   of  food
                               coupons-in-transit at yearend.

                         •     Develop and implement procedures for resolving
                               errors reported to Treasury and determining
                               whether supplemental reporting is necessary.




USDA/OIG-A/27401-11-HY                                                     Page 4
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                            OFFICE OF INSPECTOR GENERAL

                                   Washington D.C. 20250




                               CHAPTER 2
               REPORT OF THE OFFICE OF INSPECTOR GENERAL

TO:   George A. Braley
      Acting Administrator
      Food and Nutrition Service


We have audited the accompanying principal and combining statements of financial
position of the Food and Nutrition Service (FNS), an agency within the U.S.
Department of Agriculture (USDA), as of September 30, 1997, and the related
statements of operations and changes in net position for the year then ended.
These financial statements are the responsibility of FNS’ management.        Our
responsibility is to express an opinion on these statements based on our audit.

Except as discussed below, we conducted our audit in accordance with Government
Auditing Standards issued by the Comptroller General of the United States, and
the Office of Management and Budget (OMB) Bulletin 93-06, "Audit Requirements for
Federal Financial Statements," as amended, and other OMB bulletins applicable to
the period under audit. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are
free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial statements. An
audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audit provides a reasonable basis
for our opinion.

FNS could not provide sufficient, competent evidential matter to support its
gross accounts receivable, non-Federal, for the Food Stamp Program, stated at
more than $942.3 million at September 30, 1997, and the impact this balance would
have on Note 1D to the financial statements, Unexpended Appropriations and its
related Note 5 to the financial statements, Appropriated Capital Used, Operating
Program Expense and its related Note 8 to the financial statements, and Provision
for Losses.     FNS’ accounting records did not permit the application of
alternative procedures that would enable us to satisfy ourselves as to the value
of these assets, and related equity, revenue, and expenses.

In our opinion, except for the effects of such adjustments, if any, as might have
been determined to be necessary had we been able to assess the reasonableness of
the gross accounts receivable, non-Federal, for the Food Stamp Program, and the
related Unexpended Appropriations, Appropriated Capital Used, Operating Program
Expenses, Provision for Losses, and Notes 1D, 5 and 8, the financial statements
referred to above present fairly, in all material respects, the financial
position of FNS as of September 30, 1997, and the results of its operations for
the year then ended, on the basis of accounting described in Note 1A.




USDA/OIG-A/27401-11-HY                                                    Page 5
We have also issued a report on the agency’s internal controls which cites six
material internal control weaknesses and a report on the agency’s compliance with
laws and regulations which cites five material instances of noncompliance with
laws and regulations.




ROGER C. VIADERO
Inspector General

April 17, 1998




USDA/OIG-A/27401-11-HY                                                    Page 6
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                            OFFICE OF INSPECTOR GENERAL

                                   Washington D.C. 20250




                               CHAPTER 3
               REPORT OF THE OFFICE OF INSPECTOR GENERAL
                     ON INTERNAL CONTROL STRUCTURE

To:   George A. Braley
      Acting Administrator
      Food and Nutrition Service


We have audited the principal and combining financial statements of the Food and
Nutrition Service (FNS) as of and for the year ended September 30, 1997, and
issued our qualified opinion thereon, dated April 17, 1998.

Except as discussed in our opinion, we conducted our audit in accordance with
Government Auditing Standards, issued by the Comptroller General of the United
States, and Office of Management and Budget (OMB) Bulletin 93-06, "Audit
Requirements for Federal Financial Statements," as amended, and other OMB
bulletins applicable to the period under audit. Those standards require that we
plan and perform our audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.

In planning and performing our audit of the principal and combining financial
statements of FNS for the year ended September 30, 1997, we considered the
agency’s internal control structure in order to determine our auditing procedures
for the purpose of expressing our opinion on the financial statements and not to
provide assurance on the internal control structure.

           MANAGEMENT’S RESPONSIBILITY FOR INTERNAL CONTROL STRUCTURE

The management of FNS is responsible for establishing and maintaining an internal
control structure. In fulfilling this responsibility, estimates and judgments
made by management are required to assess the expected benefits and related costs
of internal control structure policies and procedures.       One objective of an
internal control structure is to provide management with reasonable, but not
absolute, assurance that assets are safeguarded against loss from unauthorized
use or disposition. The other objective is that transactions are executed in
accordance with management’s authorization and recorded properly to permit the
preparation of financial statements in accordance with the agency’s prescribed
basis of accounting. Because of inherent limitations in any internal control
structure, errors or irregularities may nevertheless occur and not be detected.

Also, projection of any evaluation of the structure to future periods is subject
to the risk that procedures may become inadequate because of changes in
conditions or that the effectiveness of the design and operation of policies and
procedures may deteriorate.

In its fiscal year (FY) 1997 Federal Managers’ Financial Integrity Act (FMFIA)
report, FNS reported that their management controls provided reasonable assurance
that their control objectives had been met except for certain material weaknesses
identified in prior years by their evaluations and independent audits.
Significant management weaknesses reported included:      (1) The need for more
intensive on-site review of administrative costs claimed for reimbursement by
State agencies administering the Food Stamp Program (FSP) and Special
Supplemental Nutrition Program for Women, Infants, and Children (WIC) (two
weaknesses); (2) the need for more detailed guidance and more intensive oversight


USDA/OIG-A/27401-11-HY                                                    Page 7
from FNS of the State agencies administering the WIC program in the area of food
delivery systems management; (3) the participation by authorized retailers in
illegal transactions involving the exchange of food stamps for cash, drugs,
weapons, or other felony-level ineligible items; (4) the need for strengthened
State agency and FSP procedures for establishing, recording, adjusting,
collecting, and reporting on FSP recipient claims; (5) the over issuance of
program benefits by State agencies administering the FSP at a rate exceeding
established tolerances; (6) the need to strengthen the management and monitoring
of weaknesses in the Child and Adult Care Food Program; (7) the need to
strengthen FNS’ accounting system and financial statement presentation; and
(8) the need to increase oversight of State automated systems development.

              OIG’S EVALUATION OF FNS’ INTERNAL CONTROL STRUCTURE

For the purpose of this report, we have classified the significant internal
control structure policies and procedures in the following categories.

•     Budget Execution and Funds Control - includes policies and procedures
      associated with the receipt of annual apportionments, the distribution of
      funds to allowance holders, the commitment and obligation during spending
      actions, and issuance of budgetary reports to OMB and U.S. Department of
      the Treasury (Treasury).

•     Grants - consists of the methods and records established to identify,
      assemble, classify, and record transactions used by FNS personnel to
      report the grant operating program expenses and unliquidated obligations.
      The unliquidated obligations amount establishes the accounts payable
      balance at year end.

•     Food Stamp Issuance/Redemption - consists of policies and procedures
      associated with the printing, shipping, issuing, and accounting for
      unissued food coupons. This category also encompasses the redemption of
      food coupons at retailers, the accounting for this by FNS, and the
      application of the redemption amount to FNS’ account at Treasury.

•     Accounts Receivable - consists of policies and procedures associated with
      establishing, recording, collecting, and maintaining records of food stamp
      recipient claims.

•     Commodities - includes transactions related to the planning, ordering,
      purchasing, storing, delivering, monitoring, and funding of commodities.

•     Integrity of Agency Financial Management System (AFMS) Data - includes
      policies and procedures to ensure the accuracy and reliability of FNS
      financial information.

•     Federal Managers’ Financial Integrity Act - consists of policies and
      procedures which require agencies to establish internal accounting and
      administrative controls in accordance with standards established by the
      Comptroller General.

•     Compliance with Laws and Regulations - includes compliance with laws and
      regulations for transactions and events that may have a material effect on
      the financial statements.

•     Financial Reporting - includes policies and procedures associated with the
      culmination of previous cycles after financial transactions have been
      summarized and posted to the general ledger.

For each of the internal control structure categories listed above, we obtained
an understanding of the design of relevant policies and procedures and whether
they had been placed in operation. We assessed control risk and performed tests
of FNS’ internal control structure.      We also obtained an understanding of
relevant internal control structure policies and procedures designed to determine
that data supported the reported performance measures in the Overview. However,


USDA/OIG-A/27401-11-HY                                                    Page 8
our objective was not to provide an opinion on the performance measures.
Accordingly, we do not express such an opinion.

In making our risk assessment, we considered FNS’ FMFIA report as well as our
prior and current audit efforts and other independent auditor reports on
financial matters and internal accounting control policies and procedures. We
noted certain matters involving the internal control structure and its operation
that we consider to be reportable conditions under standards established by the
American Institute of Certified Public Accountants and OMB Bulletin 93-06.
Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control
structure that, in our judgment, could adversely affect the organization’s
ability to have reasonable assurance that the following objectives are met:

(1)   Transactions are properly recorded and accounted       for to permit the
      preparation   of  reliable  financial statements        and  to  maintain
      accountability over assets.

(2)   Funds, property, and other assets are safeguarded against loss from
      unauthorized use or disposition.

(3)   Transactions, including those related to obligations and costs, are
      executed in compliance with (a) laws and regulations that could have a
      direct and material effect on the Principal Statements, and (b) any other
      laws and regulations that OMB, FNS, or we have identified as being
      significant for which compliance can be objectively measured and
      evaluated.

(4)   Data that support reported performance measures are properly recorded and
      accounted for to permit the preparation of reliable and complete
      performance information.

Matters that we consider to be reportable conditions are presented in the
following Findings and Recommendations.

Finding No. 1            FNS has not corrected its material internal control
Internal Control         weakness related to food stamp recipient claims. The
Weakness on Food         agency’s procedures for establishing, recording,
Stamp Recipient          adjusting, collecting, and reporting of claims needs
Claims Still Not         strengthening. Food stamp recipient claims represent
Corrected                the material portion of FNS’ account balance for
                         gross accounts receivable, non-Federal. In FY 1997
                         this balance was based on the FNS 209, Status of Food
                         Stamp Claims Against Households reports.      In our
                         prior financial statement audits, we reported that
                         the FNS 209s were unsupported, inaccurate, and
                         incomplete. FNS did not have compensating controls
                         or alternative procedures for providing relevant,
                         sufficient, and reliable data on which to base a
                         reasonable estimate of the account balance and its
                         related allowance for bad debt.      FNS’ accounting
                         records did not permit the application of alternative
                         procedures that would enable us to satisfy ourselves
                         as to the value of these assets. As a result, we are
                         unable to assess the reasonableness of the more than
                         $942.3 million included in the gross accounts
                         receivable, non-Federal, balance for the FSP.

                         In our FY 1991 through FY 1996 financial statement
                         audit reports, we reported that food stamp recipient
                         claims against households could not be substantiated.
                         We found that not all State agencies performed
                         reconciliations of supporting records to reported
                         claim balances at the end of the fiscal year. As a
                         result, we concluded that FNS did not have a system


USDA/OIG-A/27401-11-HY                                                     Page 9
                         in place that could provide reasonable assurance that
                         food stamp recipient claims against households
                         reported by State agencies, and thus the net accounts
                         receivable, non-Federal line item was reasonable.

                         We believe that FNS made significant commitments in
                         FY 1997 to address the long-standing issue with food
                         stamp recipient claims. For example, as noted in the
                         FY 1997 FMFIA report, FNS issued comprehensive review
                         and self-assessment guidance to regional offices and
                         State agencies. This guidance represents the common
                         standards that FNS will use to provide overall
                         assurance for the management of the recipient claims
                         process.   The common standards were developed in
                         consultation with the Office of Inspector General
                         (OIG). By performing reviews that meet the common
                         standards, FNS plans to be able to provide assurances
                         in three areas:     (1) The accuracy of information
                         presented on the FNS 209, (2) the validity of the
                         beginning or ending balance for the State agency, and
                         (3) whether significant backlogs exist for recipient
                         claim referrals. In FNS’ FY 1997 FMFIA report, the
                         agency reported that during FY 1998, it plans to use
                         the guidance issued to focus management reviews on
                         recipient claims. Also, during FY 1998, FNS plans to
                         complete the evaluation of the accuracy of State
                         agency balances reported on the FNS 209.       If the
                         reviews meet the common standards, the results should
                         provide a basis for assessing the reasonableness of
                         the amount included in the gross accounts receivable,
                         non-Federal, balance for the FSP.

                         As part of the work performed for the FY 1997
                         financial statements audit at the FNS Regional
                         Offices, we determined whether the regional offices’
                         reviews of food stamp recipient claims complied with
                         the FNS guidance issued in FY 1997.     We performed
                         work at four of FNS’ seven regional offices: Boston,
                         Massachusetts; Atlanta, Georgia; Chicago, Illinois;
                         and San Francisco, California.

                         In the four regions, a total of 15 review reports
                         related to the management of food stamp recipient
                         claims were completed during FY 1997 and available
                         for review. We concluded that seven of the reviews
                         met the common standards issued by FNS during FY 1997
                         for providing overall assurance about the food stamp
                         recipient claims process. Another two reviews met
                         most of the common standards. Of these nine reviews,
                         FNS concluded in three that the State and county
                         systems accurately and completely supported the
                         FNS 209 data. The remaining six reviews did not meet
                         the common standards because the reviews were
                         performed before the common standards were issued and
                         the scope of these reviews did not encompass all of
                         the areas covered by the common standards. FNS needs
                         to followup on these reviews to ensure that the
                         common standards are met.       The States and one
                         territory where FNS performed reviews represent over
                         $6.5 billion of the more than $19.6 billion in total
                         food stamp issuance for FY 1997.          Also, they
                         represent    almost   $341 million   of    the   over
                         $942 million in total reported food stamp recipient
                         claims.



USDA/OIG-A/27401-11-HY                                                    Page 10
                         In FNS’ February 20, 1998 response to OIG’s issue
                         paper on Accounts Receivable, Food Stamp Recipient
                         Claims,   FNS   agreed   to   continue   implementing
                         corrective actions from prior financial statement
                         audits. The agency also agreed to ensure that State
                         corrective action plans for any identified weaknesses
                         would be developed by September 30, 1998.        They
                         explained that regional offices have been instructed
                         to use the review guide and documentation standards
                         during their review of State agency operations.
                         Also, a staff member with extensive Food Stamp
                         experience has been appointed to coordinate all of
                         the agency’s efforts related to FNS 209’s.

Recommendation           Perform followup reviews of those States’ FNS 209 and
No. 1a                   claims systems assessments that were performed prior
                         to the issuance of the common standards.


Finding No. 2            FNS adjusted their general ledger to agree with
Procedures for           external reports they sent to Treasury without
Reconciling Fund         providing evidence that these adjustments were always
Balances with            supported. Moreover, FNS did not have procedures to
Treasury Need to be      fully document their fund balance reconciliation
Strengthened             process. While the adjustments made during FY 1997
                         did not have a material effect on the agency’s fund
                         balance, FNS should ensure that the external reports
                         are supported by their accounting system and detail
                         documentation at the time the reports are submitted.
                         In addition, FNS did not separately identify in
                         Note 2 in the financial statements presented for
                         audit, the $98 million cash balance remaining in
                         their food stamp redemption fund at yearend.

                         Treasury Financial Manual (TFM) Bulletin 97-06,
                         Yearend Closing, dated July 24, 1997, requires
                         agencies to verify their records each month against
                         the transactions recorded by Treasury, as shown on
                         their monthly reports. FNS’ implementation of Agency
                         Financial Management System (AFMS) fund balance
                         reconciliation procedures did not always result in
                         timely resolution of differences.    FNS posted the
                         differences between its records and the reports FNS
                         sent to Treasury by making adjustments at account
                         summary levels at fiscal yearend.     FNS could not
                         provide an adequate audit trail leading back to the
                         source of the transactions.

                         FNS advised us that they have a six step
                         reconciliation process.     However, their current
                         procedures, AFMS 213, "Procedures for Reconciling the
                         Accounting Data," dated July 21, 1997, did not fully
                         document this process.     AFMS 213 states: Manual
                         Government On-Line Accounting Link System (GOALS)
                         corrections must be supported by corresponding AFMS
                         entries and all differences resulting from current
                         year transactions must be corrected within two
                         accounting periods. All differences resulting from
                         prior fiscal year corrections must be noted (and
                         explained by) a photocopy of the applicable fiscal
                         year end trial balance page that displays the
                         discrepancy. The accounting station must determine
                         if the error is a GOALS reporting error or an AFMS
                         error. GOALS reporting must either be adjusted in
                         GOALS or the accounting station must post a


USDA/OIG-A/27401-11-HY                                                    Page 11
                         corresponding entry in AFMS. Differences from AFMS
                         input errors must be corrected.

                         Monthly, FNS reconciles AFMS records to Treasury
                         Form 6653, Balance of Undisbursed Appropriation
                         Ledger. According to FNS officials, differences can
                         occur due to timing, inaccurate postings, and
                         reversals of prior year summary level adjustments
                         (SUC).    FNS did not comply with their internal
                         procedures for timely reconciling their accounts to
                         Treasury during the year. At FY 1997 yearend, FNS
                         made about 70 SUCs for reversals from prior and
                         current year differences with Treasury and posting
                         errors totaling almost $16.9 million.     FNS stated
                         that almost $7.5 million of this was posted in order
                         to remove a portion of the summary level adjustments
                         posted at FY 1996 yearend; over $8.9 million was to
                         correct inaccurate entries; and almost $500,000 was
                         posted as a result of reconciling with Treasury. FNS
                         could not provide evidence that these adjustments to
                         AFMS were always supported.

                         According to FNS officials the SUCs were made in
                         order to follow Treasury’s requirement that no
                         differences be reported at yearend. At yearend, FNS
                         posts the differences between its records and the
                         reports FNS sent to Treasury by making adjustments at
                         the account summary levels. At FY 1997 yearend, the
                         70 SUCs referred to above affected the Fund Balance
                         with Treasury (net increase of $4.5 million),
                         Operating   Program   Expenses   (net   decrease   of
                         $4.5 million), Liabilities for Deposit/Suspense (net
                         decrease of $55,000), Appropriated Capital (net
                         increase of $4.5 million), and Appropriated Capital
                         Used (net decrease of $4.5 million) accounts, as well
                         as various budgetary accounts.

                         In the April 13, 1998, response, FNS asserted that
                         monthly, a six step reconciliation and identification
                         process    is    performed   to   validate   Treasury
                         information.     However, FNS could not provide the
                         documented procedures describing this entire process
                         or evidence that adjustments to AFMS were always
                         supported.     FNS justified adjusting cash account
                         balances to equal Treasury’s records based on
                         Statement of Federal Financial Accounting Standards
                         No. 1 which states that discrepancies due to time lag
                         should be reconciled and discrepancies due to error
                         should be corrected when financial reports are
                         prepared.    We do not disagree with this standard.
                         However, FNS did not demonstrate that the adjustments
                         were the result of efforts to resolve differences due
                         to errors or timing.     Rather, FNS tied the sum of
                         differences to a particular fund and fiscal year and
                         not to individual transactions. FNS advised us that
                         these summary adjustments are reversed when detail
                         information on these transactions is subsequently
                         received.      FNS needs to develop controls to
                         substantiate the detail transactions that are
                         associated with each summary adjustment.

                         FNS also agreed, in their response, that the
                         redemption account balance was material and separate
                         identification on the financial statements was
                         necessary. In accordance with Office of Management


USDA/OIG-A/27401-11-HY                                                    Page 12
                         and Budget (OMB) Bulletin No. 97-01, FNS revised
                         Note 2 in the audited financial statements to provide
                         separate identification of the $98 million cash
                         balance remaining in the food stamp redemption fund
                         at yearend.

Recommendation           Modify the reconciliation procedures to fully
No. 2a                   document the process used to reconcile fund balances
                         with Treasury.

Recommendation           Develop controls to ensure that Treasury and AFMS
No. 2b                   reconciliation procedures are properly followed and
                         that an adequate audit trail exists.


Finding No. 3            Based on our review of FY 1997 operations, FNS’
Implementation and       oversight and implementation of the State Option Food
Oversight of the         Stamp Program (SOFSP) needs improvement. We noted
State Option Food        that Agency Financial Management System (AFMS)
Stamp Program Needs      procedures were not adequate, resulting in a
Improvement              potential Anti-Deficiency Act violation (see Finding
                         No.   1 of our Report on Compliance with Laws and
                         Regulations).    Additionally, SOFSP guidance for
                         States was not fully implemented and the methodology
                         for allocating State-funded benefits redeemed needs
                         to be modified. As the SOFSP continues to expand,
                         there is potential for material misstatement of the
                         FSP redemption account.

                         On June 12, 1997, the President signed into law the
                         Supplemental Appropriations Act, Public Law 105-18.
                         This law included the authority for States to
                         purchase food coupons from the Federal government for
                         use in a State-funded food assistance program for
                         legal immigrants, and childless, able-bodied adults
                         ineligible for the FSP. (These individuals were made
                         ineligible for the FSP by the Personal Responsibility
                         and Work Opportunity Reconciliation Act of 1996.)
                         Most of the participating States have elected to
                         provide benefits primarily to legal immigrants.
                         Based on FNS data, the SOFSP has the potential to
                         grow to over $700 million.

                         During FY 1997, six States operated eight SOFSPs.
                         During FY 1998, the number of participating States
                         increased to nine, as of the date of audit fieldwork.
                         The impact of the SOFSP was reported to be
                         $13.3 million in FY 1997. Based on current program
                         participation levels, we estimate that the program
                         will exceed $193 million during FY 1998.

                         States   operating   a   SOFSP   utilize  FNS’  FSP
                         infrastructure. That is, they purchase FSP coupons
                         (or electronic benefits transfer (EBT) issued
                         benefits) from FNS which are transacted at FNS
                         authorized FSP retailers.       These benefits are
                         subsequently redeemed through the Federal Reserve
                         Bank (FRB) system.     Additionally, upon issuance,
                         State-funded benefits are indistinguishable from
                         Federally-funded FSP benefits.

                         We reviewed guidance, dated August 8, 1997, issued by
                         the FSP National Office to all FNS regional
                         administrators providing requirements for State
                         agencies on submitting a request to purchase food


USDA/OIG-A/27401-11-HY                                                    Page 13
                         coupons for use in State-funded nutrition programs.
                         The guidance also provided information on the terms
                         for reimbursing the Federal government for the value
                         of food coupons distributed and the Federal
                         administrative fees incurred under the program. We
                         found   that   this  guidance   provided   sufficient
                         direction for States issuing benefits through
                         coupons.     Guidance addressing the issuance of
                         benefits through EBT systems has not been issued, but
                         is in the finalization stage.

                         In   accordance   with  this   guidance,  a   formal
                         reimbursable agreement is required to be signed by
                         both FNS and the State. The agreement requires that
                         the State reimburse FNS for the value of benefits,
                         printing, shipping, and redemption costs.     States
                         must submit a separate monthly FNS 388, State
                         Issuance and Participation Estimates Report, to
                         report State-funded issuance and participation
                         estimates.   This report is due by the 19th of the
                         report month. Along with the FNS 388, States must
                         submit payment to FNS to cover the cost of
                         State-funded benefits to be issued during the month
                         and the associated administrative fees. States must
                         also indicate on their FNS 250, Food Coupon
                         Accountability Report, the amount of actual issuance
                         of State-funded coupons.       The FNS 250 is due
                         45 calendar days after the last day of the coupon
                         issuance month.

                         FNS also issued two AFMS accounting procedures
                         (AFMS 107 and AFMS 108) on October 3, 1997. These
                         procedures addressed FNS’ financial policy and
                         processing procedures to account for SOFSP benefits
                         issued via coupons or through EBT.     Based on our
                         review, these procedures do not adequately address
                         all necessary processes. Specifically, they do not
                         indicate how to handle the issuance of benefits when
                         the State has not timely submitted payment.

                         SOFSP Procedures    Were   Not    Adequate    or   Fully
                         Implemented
                               Issuance of Selected       States’   Benefits   Not
                               Recorded in AFMS

                               FNS did not record in AFMS, in FY 1997, the
                               issuance of SOFSP benefits for two States.
                               AFMS procedures, AFMS 107 and AFMS 108, state
                               that entries are to be made in the accounting
                               system when the receipt of payment is made.
                               This resulted in FNS’ accounting records
                               understating SOFSP activity.      Receipt of
                               payment was recorded in November 1997.

                               Additionally,   FNS   did  not   establish   a
                               receivable for almost $4.5 million in benefits
                               issued but not paid for, in FY 1997, or charge
                               the States interest for the cost of borrowing
                               these funds. Based on the U.S. Department of
                               the Treasury’s interest rate for this period,
                               6.75 percent, interest costs of approximately
                               $25,000 would have been incurred in FY 1997,
                               because the States did not timely pay FNS.



USDA/OIG-A/27401-11-HY                                                         Page 14
                         Regulation 31 Code of Federal Regulations
                         Part 205.12(c),     implementing    the    Cash
                         Management Improvement Act of 1990, State
                         interest liabilities provision, states that
                         "With respect to programs for which the Federal
                         government makes payments on behalf of a State
                         ... a State will incur an interest liability to
                         the Federal government if a Federal agency pays
                         out Federal funds for program purposes on
                         behalf of the State.         A State interest
                         liability will accrue from the day the Federal
                         agency pays out Federal funds for program
                         purposes to the day State funds are credited to
                         the Federal Government’s account."

                         FNS should record in AFMS the applicable
                         transactions for the SOFSP benefits issued and
                         related administrative fees not paid in
                         FY 1997.    Also, FNS needs to modify AFMS
                         procedures to record issuance of SOFSP benefits
                         in their accounting system notwithstanding when
                         payment is made.     Additionally, FNS should
                         establish   a   procedure   for   recording   a
                         receivable when timely payment is not made by
                         a State.

                         In FNS’ April 1, 1998, response, they agreed to
                         record a receivable for benefits issued and
                         administrative fees not paid. FNS recorded, in
                         FY 1997, a receivable for $4.4 million, for
                         only one State.      This entry also impacted
                         Unexpended Appropriations, Appropriated Capital
                         Used, and Operating Program Expense.        FNS
                         stated this entry would be reversed in FY 1998.
                         We do not agree with this accounting treatment.
                         When recording this receivable, FNS should have
                         recorded a receivable for the amount of
                         benefits issued but not paid and followed AFMS
                         procedures for recording benefits issued and
                         reimbursement for administrative fees.       In
                         FY 1998, FNS should record the receipt of cash
                         and the reduction of the receivable. By using
                         this approach, FNS will consistently record in
                         AFMS, SOFSP issuance and related administrative
                         fees.

                         In FNS’ response, they stated that AFMS
                         procedures are correct.       These procedures
                         address the appropriate process rather than
                         attempting to address what should be done if
                         the procedures are not followed. FNS agreed to
                         modify AFMS Procedures 107 and 108 to include
                         a reference to AFMS Procedure 203, the Account
                         Receivable process. If FNS follows AFMS 203,
                         in addition to recording SOFSP benefit issuance
                         when the FNS 388 is received, appropriate
                         accounting entries will be made in the correct
                         period. We will evaluate the sufficiency of
                         this control during our FY 1998 financial
                         statements audit.

                         Establish Procedures to Provide for Note
                         Disclosure of the Amount of SOFSP Issuance




USDA/OIG-A/27401-11-HY                                              Page 15
                         FNS records, in AFMS and the agency’s financial
                         statements Operating Program Expense line item,
                         the cost of SOFSP benefits issued and related
                         administrative fees. Note 8 to the financial
                         statements breaks down the Operating Program
                         Expense line item by OMB object classification.
                         In Note 8 of the FY 1997 financial statements
                         presented for audit, FNS did not separately
                         identify SOFSP expenses. Because the SOFSP is
                         a State program, these expenses should be
                         distinguished from Federal expenses in this
                         note.

                         In FNS’ April 1, 1998, response, they agreed to
                         disclose in Note 8 the SOFSP expenses in the
                         Operating Program Expense line item.       This
                         disclosure is included in the audited financial
                         statements.   FNS also agreed to establish a
                         procedure for disclosure of SOFSP benefits in
                         the notes to future years financial statements.

                         Procedures for the Collection of Administrative
                         Fees Needs to be Modified

                         FNS   cannot   determine  whether   they   have
                         collected     the   appropriate    amount    of
                         administrative fees assessed to cover printing,
                         shipping, and redemption of the State-funded
                         food   coupons.      The   administrative   fee
                         calculation is based on the number of coupons
                         estimated to be issued and reconciled when
                         actual issuance is determined.        As noted
                         previously, this information is not always
                         timely received by FNS.          Payments for
                         administrative fees by States are required at
                         the time of issuance based on estimates. Since
                         timely information of actual issuance is not
                         received,     the   appropriate    amount    of
                         administrative fees due to FNS could not be
                         determined.      As a result, we could not
                         determine the financial impact on FNS’ FY 1997
                         financial statements or calculate what effect,
                         if any, there would be in FY 1998. According
                         to    FNS    officials,   in    FY 1999,    the
                         administrative fee will be determined on a
                         yearly basis as a result of the first year of
                         operation. If FNS does not have the necessary
                         data to calculate the fee, there is the
                         potential that Federal funds may be used for
                         administering the State program, which is a
                         violation of the Federal law establishing the
                         authority for the SOFSP.

                         AFMS procedures for both coupon issuance and
                         EBT state that a receivable should be
                         established under the appropriate account for
                         administrative fees. AFMS procedures require
                         that a receivable be set up when payment is
                         remitted, rather than when the FNS 388 is
                         submitted. Because payment is not always made
                         when the FNS 388 is submitted, the accounts
                         receivable and operating program expense
                         balances may be misstated. FNS needs to modify
                         its procedures to establish an accounts



USDA/OIG-A/27401-11-HY                                              Page 16
                               receivable when the FNS 388 is submitted rather
                               than when payment is received.

                               In FNS’ April 1, 1998, response to our issue
                               paper on the SOFSP, FNS agreed to modify AFMS
                               Procedures 107 and 108 to clarify the
                               requirements to establish a receivable for
                               administrative fees when the FNS 388 is
                               received.

                         SOFSP Procedures Were Not Fully Implemented
                         FNS has not required States to comply with their
                         approved State plans, which direct the State to
                         establish procedures for reporting actual issuance
                         data, on the FNS 250 report. As of March 1998, two
                         of the largest States had not submitted their
                         September 1997, FNS 250 report with this information.
                         This report was due November 15, 1997. The data on
                         the FNS 250 report is used by FNS to determine the
                         actual amount of issuance and whether additional
                         funds are due to FNS.

                         Initially, FNS anticipated that they would not need
                         to spend a significant amount of staff time
                         monitoring the SOFSP. This included reconciling, on
                         an annual basis, reported issuance to payments
                         received. In our opinion, an annual reconciliation
                         is not adequate.    FNS recognized that additional
                         monitoring was necessary and has contracted with a
                         vendor to design and implement a database system to
                         track the operation of the SOFSP.           In the
                         April 1, 1998, response to our issue paper on the
                         SOFSP, FNS did not specifically respond to our
                         recommendation on changing the frequency of the
                         reconciliation performed. This reconciliation should
                         occur more frequently than on an annual basis.


                         Methodology   for   Determining   the   Amount    of
                         State-funded Benefits Redeemed Needs to be Modified
                         Upon issuance, Federally- and State-funded food
                         coupons cannot be distinguished. The FSP redemption
                         liability account includes both Federally- and
                         State-funded food coupons and is used to record
                         obligations and redemption of food coupons.     As a
                         result, FNS no longer has an accurate mechanism for
                         determining the total dollar value of Federal food
                         stamp benefits that are redeemed. FNS has chosen to
                         report 100 percent of State benefits as redeemed.
                         The balance of the FSP redemption account is
                         considered a Federal liability. FNS indicated that
                         they established this approach because it was the
                         most feasible and because of the difficulty in
                         identifying State versus Federal redemptions. This
                         approach is not reasonable. FNS routinely assesses
                         the balance in the FSP redemption account to ensure
                         that there are enough funds to pay for benefits that
                         have been issued. As a result of this process, FNS
                         historically has determined that benefits issued are
                         not always redeemed, potentially creating a surplus
                         balance in the FSP redemption account. As a result,
                         there is the potential for material misstatement of
                         the FSP redemption account.


USDA/OIG-A/27401-11-HY                                                    Page 17
                         In FNS’ April 1, 1998, response to our issue paper on
                         the SOFSP, FNS disagreed with our conclusion and
                         stated that FNS’ policy of considering the States
                         benefits as 100 percent redeemed is the most feasible
                         solution.   We disagree with this position because
                         based on FNS’ historical knowledge, 100 percent of
                         food stamp benefits are not redeemed. Consequently,
                         as the SOFSP increases the Federal liability for food
                         coupon redemption could be significantly understated.
                         Accordingly, FNS should revise the methodology used
                         to record the redemption of State-funded benefits to
                         ensure an equitable presentation of Federal versus
                         State funded activities.

Recommendation           Modify AFMS procedures to record issuance of SOFSP
No. 3a                   benefits when notified of issuance.

Recommendation           Implement a procedure to record a receivable when
No. 3b                   payment for benefit issuance and administrative fees
                         is not timely received.    Additionally, FNS should
                         bill States for interest costs incurred by the
                         Federal government.

Recommendation           Clarify the procedure for establishing a receivable
No. 3c                   for administrative fees when the FNS 388 report is
                         submitted by the State.

Recommendation           Revise the methodology used to record the redemption
No. 3d                   of State-funded benefits to provide an equitable
                         presentation   of   Federal  versus   State   funded
                         activities.

Recommendation           Require that actual issuance be reconciled with funds
No. 3e                   received from States to pay for benefits and
                         administrative costs on a more frequent than annual
                         basis.

Recommendation           Establish a procedure to provide for disclosure in
No. 3f                   FNS financial statement notes for the amount of SOFSP
                         benefits recorded in the Operating Program Expense
                         line item.


Finding No. 4            FNS materially misstated the value of food coupons in
Adjustment Needed        inventory at yearend disclosed in Note 4(c) of the
to the Value of          FY 1997 financial statements presented for audit.
Food Coupon              This occurred because FNS did not properly disclose
Inventory Reported       $333,780,000 in unredeemed and unissued food coupons
in Note 4(c)             that had been printed under an FY 1998 serial number.
                         Additionally,   FNS   did   not   properly   validate
                         $374,102,000 in food coupons as being in-transit when
                         they were already included in States inventory
                         records. As a result, the value of these coupons was
                         reported twice.

                         We reviewed each of the components used to calculate
                         the FY 1997 food coupon ending inventory reported in
                         Note 4(c) of the FY 1997 financial statements.
                         Specifically,    we   evaluated    the   accuracy   and
                         reliability   of    the   amount   of   food   coupons,
                         nationwide, by performing physical inventories of the
                         amount of food coupons maintained by selected States
                         and reconciling our physical inventory with the
                         FNS 250,    Food    Coupon    Accountability    Report.
                         Additionally, we performed a physical inventory of


USDA/OIG-A/27401-11-HY                                                      Page 18
                         the food coupons maintained at the American Bank Note
                         (ABN),    food   coupon   distribution/storage    and
                         production facilities, as well as validated the
                         amount of food coupons reported in-transit as of
                         September 30, 1997.

                         Review of FY 1997     Yearend   Food   Coupon   Ending
                         Inventory at ABN
                         Based on our review of the FY 1997 food coupon ending
                         inventory at ABN, we determined that food coupons had
                         been printed under the FY 1998 serial number during
                         FY 1997 and were included in the 1997 total inventory
                         amount. To properly reflect the FY 1997 food coupon
                         ending inventory, FNS needed to disclose in Note 4(c)
                         that $333,780,000 in unredeemed and unissued food
                         coupons included in inventory on September 30, 1997
                         were FY 1998 coupons in storage at the ABN printing
                         facility.

                         On March 9, 1998, FNS agreed to make this revision to
                         Note 4(c). This revision is included in the audited
                         financial statements.

                         Review of FNS FY 1997 Food Coupons-in-Transit
                         We determined that of the $472,801,000 in coupons
                         that FNS inventory records identified as being
                         in-transit, $374,102,000 were actually delivered to
                         the States and included in the States’ inventory. As
                         a result, the $374,102,000 was included in the food
                         coupon ending inventory, twice, as part of the
                         coupons-in-transit and as part of the States’
                         inventory.

                         To calculate the food coupon inventory, FNS
                         determines the face value of the food coupons that
                         have been printed and are still located at the
                         printer and distribution centers, the coupons that
                         are in-transit, and the coupons that are in inventory
                         at   the  States.      The  in-transit   figure   has
                         historically been based on shipping records for the
                         last three weeks of the fiscal year. In FY 1997, the
                         in-transit figure was based on shipments dated
                         between September 15 and September 30, 1997.       To
                         validate in-transit shipments, we obtained ABN
                         delivery records from the contracting officer’s
                         technical representative.    Review of these records
                         disclosed that only $98,699,000 in coupons were still
                         in-transit as of September 30, 1997. As a result,
                         the unredeemed and unissued food coupons reported in
                         Note 4(c) was overstated by $374,102,000.

                         On March 9, 1998, FNS agreed to make the necessary
                         revision to Note 4(c). This revision is included in
                         the audited financial statements.

                         Benefit Redemption Division staff confirmed that ABN
                         delivery   records    are   available    mid-October.
                         Therefore, FNS can implement a procedure to calculate
                         food coupons in-transit based on delivery records.
                         FNS agreed to incorporate this analysis in FY 1998.

Recommendation           Develop procedures to use delivery records from ABN
No. 4a


USDA/OIG-A/27401-11-HY                                                     Page 19
                         to determine the actual    amount   of   food   coupons
                         in-transit at yearend.


Finding No. 5            FNS did not correctly report the Trust and Deposit
Trust and Deposit        Liabilities, Non-Federal line item on the FY 1997
Liabilities,             financial statements presented for audit.           A
Non-Federal Line         $3,000,000 advance, related to the SOFSP, was
Item Materially          incorrectly presented as a part of the Trust and
Misstated                Deposit Liabilities, Non-Federal line item, resulting
                         in the line item being materially misstated. This
                         amount should have been included as part of the
                         Accrued Program Liabilities, Non-Federal, line item.

                         In accordance with OMB Bulletin No. 94-01, Form and
                         Content of Agency Financial Statements, dated
                         November 16, 1993, FNS provided further disclosure of
                         the Other Governmental Liabilities line item.      In
                         doing so, FNS designated two line items to represent
                         Other Governmental Liabilities.      Accrued Program
                         Liabilities, Non-Federal, includes FNS’ liability for
                         issued but unredeemed food stamp coupons that are
                         likely to be redeemed and the other estimated
                         liabilities related to FNS programs which includes
                         accrued payroll and benefits.      Trust and Deposit
                         Liabilities, Non-Federal, includes amounts held in
                         deposit funds, suspense accounts and undeposited
                         collections, including budget clearing accounts
                         awaiting disposition or reclassification.

                         FNS used the wrong index code in AFMS, which resulted
                         in the liability for this $3,000,000 advance being
                         placed in the food stamp fund (400) rather than the
                         food stamp benefit redemption fund (MGO). According
                         to the FNS financial statements crosswalk, the
                         liability for the food stamp benefit redemption fund
                         should be presented on the financial statements as
                         part of the Accrued Program Liabilities, Non-Federal
                         line item. The Trust and Deposit Liabilities line
                         item, as presented on the financial statements,
                         totaled $4,715,000.      Of this total, $3,000,000
                         should have been included as part of the Accrued
                         Program   Liabilities,    Non-Federal    line   item.
                         Accordingly, the Trust and Deposit Liabilities, Non-
                         Federal was materially misstated.

                         FNS was aware of this error but stated that the
                         amount had already been reported in September 1997,
                         to Treasury, as part of the food stamp fund activity.
                         FNS felt that this error should not be corrected
                         within AFMS until it could be reported accurately to
                         Treasury. FNS also stated that they were going to
                         correct the error in October 1997 as part of FY 1998.
                         However, because this amount is a material portion of
                         the Trust and Deposit Liabilities line item an
                         adjustment needs to be made to the FY 1997 financial
                         statements.

                         In FNS’ March 3, 1998, response to OIG’s issue paper
                         on the Trust and Deposit Liabilities line item, FNS
                         agreed to adjust the presentation of the Trust and
                         Deposit Liabilities, Non-Federal, and Accrued Program
                         Liabilities, Non-Federal, line items on the FY 1997
                         financial statements. This revision is included in
                         the audited financial statements.         The agency


USDA/OIG-A/27401-11-HY                                                      Page 20
                         explained that by processing reversing entries from
                         FY 1998 to FY 1997 accounting records would create an
                         out of balance condition with Treasury. We confirmed
                         this position with staff of Treasury’s Financial
                         Management Service (FMS) Reports Management Division.
                         However, they explained that if this error had been
                         detected earlier, FNS may have been able to correct
                         this during the yearend closing process.

                         Treasury Financial Manual Part 2, Chapter 4200, dated
                         July 1995, prescribes procedures for submitting FMS
                         Form 2108, Yearend Closing Statement.         Section
                         4255.40, Verification and Adjustment of Reports by
                         Agencies, states that if data furnished in column (1)
                         or (2) of FMS Form 2108 conflicts with agency
                         records, the agency should immediately contact FMS
                         and, with its approval, coordinate the necessary
                         resolution. Also, if a reporting error is detected
                         after the report is submitted, FMS is to be contacted
                         to request authorization for supplemental reporting.

                         In accordance with the above described procedure, we
                         believe that in the future when errors are detected,
                         FNS should contact FMS to determine the appropriate
                         resolution and whether supplemental reporting is
                         necessary.

Recommendation           Develop and implement procedures for resolving errors
No. 5a                   reported to Treasury and supplemental reporting when
                         necessary.


Finding No. 6            FNS did not include EBT obligations in the
Accounts Payable         calculation of the accounts payable writedown model
Model Incorrectly        for the FSP in FY 1997 in the financial statements
Applied to               presented for audit.    FNS based the FSP writedown
Determine FY 1997        factor on FY 1991 to FY 1995 data because EBT
Writedown Factor         obligations were no longer a part of the regional
for the FSP              closeout process starting with FY 1996. When the EBT
                         obligations amount for FY 1996 was determined and
                         included in the calculation, FNS reduced the amount
                         of   the   writedown   adjustment    by  more   than
                         $13.1 million for the FSP.

                         FNS issues grants to States for food assistance
                         programs. At fiscal year end States report program
                         funds (obligations) estimated to be expended for the
                         current grant.     The grant expenditure closeout
                         process, performed at FNS Regional Offices, does not
                         occur until 3-9 months after the end of the fiscal
                         year, depending on the type of grant. Because FNS
                         does not know the exact amount of funding needed by
                         its grantees until the grant closeout process is
                         completed, they use a statistical model to estimate
                         accounts payable for current year grant obligations,
                         for financial statement purposes. The model adjusts
                         the current period accounts payable amount based upon
                         the historical relationship between obligations at
                         the end of the fiscal year and the actual obligations
                         reported through the closeout process.          These
                         adjustments are made using an account specific
                         factor. The account specific factor for each program
                         is an average of the difference between actual and
                         estimated    obligations    divided   by    estimated
                         obligations, for the five most recent years.


USDA/OIG-A/27401-11-HY                                                    Page 21
                         In previous years, the model for the FSP included
                         obligations for two variables, EBT payments and State
                         Administrative Expenses (SAE). During FY 1996, FNS
                         converted from the U.S. Department of Health and
                         Human Services’ Payment Management System to the
                         Account Management Agent System operated by the
                         Federal Reserve Bank of Richmond. As a result, EBT
                         benefits were obligated by the FNS National Office
                         allowance holder and were not included in the
                         regional closeout process. Therefore, FNS did not
                         include EBT obligations in their statistical model;
                         only one variable, SAE, was used. FNS calculated the
                         accounts payable estimate for FSP excluding FY 1996
                         data. This distorted the estimate of expenditures
                         and resulted in actual obligations at closeout
                         appearing to be significantly less than prior years.
                         This was not consistent with how the accounts payable
                         model was designed and did not provide a historical
                         basis for the writedown.    We recommended that FNS
                         obtain EBT obligations for FY 1996 that would have
                         been included in the closeout process and recalculate
                         the FSP account specific factor. Using the revised
                         factor resulted in an upward adjustment to the
                         Accounts Payable, Non Federal, line item for FY 1997.
                         The effect of this adjustment was to reduce the
                         amount of the accounts payable writedown adjustment
                         by $13,138,523.

                         In FNS’ March 5, 1998, response to OIG’s issue paper
                         on the FY 1997 accounts payable model, they agreed to
                         make this adjustment to the financial statements.
                         This revision is included in the audited financial
                         statements.         Accordingly,    no     additional
                         recommendation is being made.

A material weakness is a reportable condition in which the design or operation
of the specific internal control structure does not reduce to a relatively low
level the risk that errors or irregularities, in amounts that would be material
in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing
their assigned functions.

Our consideration of the internal control structure would not necessarily
disclose all matters in the internal control structure that might be reportable
conditions and, accordingly, would not necessarily disclose all reportable
conditions that are also considered to be material weaknesses as defined above.
However, we believe the reportable conditions described in Finding Nos. 1 to 6
are material weaknesses.

We also noted other internal control weaknesses that, although not reported
herein, warrant corrective action to strengthen FNS’ internal control structure
and operations. These conditions will be presented in a separate report to FNS
management.




ROGER C. VIADERO
Inspector General

April 17, 1998




USDA/OIG-A/27401-11-HY                                                    Page 22
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                            OFFICE OF INSPECTOR GENERAL

                                   Washington D.C. 20250




                               CHAPTER 4
               REPORT OF THE OFFICE OF INSPECTOR GENERAL
                ON COMPLIANCE WITH LAWS AND REGULATIONS


To:   George A. Braley
      Acting Administrator
      Food and Nutrition Service


We have audited the principal and combining financial statements of the Food and
Nutrition Service (FNS) as of and for the year ended September 30, 1997, and have
issued our qualified opinion thereon, dated April 17, 1998.

Except as discussed in our opinion, we conducted our audit in accordance with
Government Auditing Standards, issued by the Comptroller General of the United
States, and Office of Management and Budget (OMB) Bulletin No. 93-06, "Audit
Requirements for Federal Financial Statements," as amended, and other OMB
bulletins applicable to the period under audit. Those standards require that we
plan and perform our audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.

The management of FNS is responsible for compliance with laws and regulations
applicable to FNS. As part of obtaining reasonable assurance about whether the
financial statements are free of material misstatement, we performed tests of
FNS’ compliance with certain provisions of laws and regulations that might
directly affect the financial statements and certain other laws and regulations
designated significant by OMB and FNS. These laws and regulations are as follow:

•      Chief Financial Officers Act of 1990
•      Budget and Accounting Procedures Act of 1950
•      OMB Statements of Federal Financial Accounting Concepts and Standards
•      Federal Managers’ Financial Integrity Act of 1982
•      Anti-Deficiency Act and Federal Appropriations Law
•      31 U.S.C. 3512, Executive Agency Accounting Systems
•      OMB Circular A-34, Instructions on Budget Execution
•      OMB Bulletin Nos. 94-01 and 97-01, Form and Content of Agency Financial
       Statements
•      Food Stamp Act of 1977, as amended
•      Accounting and Auditing Act of 1950 (Public Law 81-784)
•      Title 7 Code of Federal Regulations Parts 210, 226, 246, 271-277
•      Cash Management Improvement Act of 1990
•      Government Performance and Results Act of 1993
•      Government Management Reform Act of 1994
•      Federal Financial Management Improvement Act of 1996
•      Debt Collection Improvement Act of 1996

As part of our audit, we also reviewed management’s process for evaluating and
reporting on internal control and accounting systems, as required by the Federal
Managers’ Financial Integrity Act of 1982 (FMFIA), and compared the agency’s most
recent FMFIA reports with the evaluation we conducted of FNS’ internal control


USDA/OIG-A/27401-11-HY                                                   Page 23
structure. We also reviewed and tested FNS’ policies, procedures, and systems
for documenting and supporting financial, statistical, and other information
presented in the overview of the reporting entity and supplemental financial and
management information. However, our objective was not to provide an opinion on
overall compliance with such provisions. Accordingly, we do not express such an
opinion.

The results of our tests of compliance with the laws and regulations described
above disclosed five material instances of noncompliance which are presented in
Finding Nos. 1 and 2. Material instances of noncompliance are failures to follow
requirements, or violations of prohibitions, contained in law or regulations that
cause us to conclude that the aggregation of misstatements resulting from those
failures or violations is material to the financial statements, or the
sensitivity of the matter would cause it to be perceived as significant by
others.

Under the Federal Financial Management Improvement Act of 1996 (FFMIA), we are
required to report whether FNS’ financial management system substantially
complies with the Federal financial management systems requirements, applicable
accounting standards, and the United States Standard General Ledger (SGL) at the
transaction level. To meet this requirement, we performed tests of compliance
using the implementation guidance for FFMIA issued by OMB on September 9, 1997.
The results of our tests disclosed no instances where FNS’ financial management
systems did not substantially comply with these three requirements.

Material instances of noncompliance are presented in the following Findings and
Recommendations.


Finding No. 1            FNS expended FSP appropriated funds for the State
FNS Violated the         Option Food Stamp Program (SOFSP) in violation of the
Food Stamp Act by        Food Stamp Act. FNS did not receive payment from two
Using FSP                States at the time of issuance, a violation of
Appropriated Funds       authorizing legislation.    When these benefits were
for the State            redeemed in FY 1997, through the Federal Reserve Bank
Option Food Stamp        (FRB), Federal funds would have been used to pay
Program                  retailers for the SOFSP transactions, resulting in a
                         potential Anti-Deficiency Act violation.

                         On June 12, 1997, the President signed into law the
                         Supplemental Appropriations Act, Public Law 105-18.
                         This law included the authority for States to
                         purchase food coupons from the Federal government for
                         use in a State-funded food assistance program for
                         legal immigrants, and childless, able-bodied adults
                         ineligible for the FSP.

                         States   operating  a   SOFSP  utilize   FNS’  FSP
                         infrastructure. That is, they purchase FSP coupons
                         (or electronic benefits transfer (EBT) issued
                         benefits) from FNS which are transacted at FNS
                         authorized FSP retailers.     These benefits are
                         subsequently redeemed through the FRB system.
                         Additionally, upon issuance, State-funded benefits
                         are indistinguishable from Federally-funded FSP
                         benefits.

                         The purpose of the Food Stamp Act of 1977, as
                         amended, which established the FSP, is to permit
                         low-income households to obtain a more nutritious
                         diet through normal channels of trade by increasing
                         purchasing power for all eligible households who
                         apply for participation. Funds appropriated for the
                         FSP are to be used for necessary expenses of the
                         program.


USDA/OIG-A/27401-11-HY                                                    Page 24
                         Congress amended the Food Stamp Act, June 12, 1997,
                         authorizing the SOFSP, stating:

                               "Not later than the date the State agency
                               issues benefits to individuals under this
                               subsection, the State agency shall pay
                               the   Secretary,    in   accordance  with
                               procedures established by the Secretary,
                               an amount that is equal to -
                               (i) the value of the benefits; and
                               (ii) the costs of printing, shipping, and
                               redeeming coupons, and other Federal
                               costs,   incurred     in   providing  the
                               benefits,    as    determined     by  the
                               Secretary."

                         This language indicates that Congress’ intent is not
                         to use Federal funds to pay for the SOFSP; State
                         funds are to be used.

                         Appropriation Law, 31 U.S.C. § 1301(a), states
                         "Appropriations shall be applied only to the objects
                         for which the appropriations were made except as
                         otherwise provided by law." Simply stated, public
                         funds may be used only for the purpose or purposes
                         for which they were appropriated. Because FNS used
                         Federal   funds   for   unauthorized    purposes,   an
                         Anti-Deficiency Act violation may have occurred. FNS
                         officials believe that an Anti-Deficiency Act
                         violation   did   not   occur   because    authorizing
                         legislation, a part of the Food Stamp Act, allows
                         States to implement the SOFSP and issue benefits.

                         FNS issued guidance to States, on August 8, 1997, in
                         accordance with the implementing legislation, that
                         required States to submit an FNS 388, State Issuance
                         and Participation Estimates Report, and payment to
                         FNS for their estimated issuance for the month. We
                         found that this procedure has not been followed.

                         We reviewed the supporting documents provided by both
                         the FSP Program Information Division and the
                         Accounting   Division.      Reconciliation   of   the
                         information from these two divisions showed that FNS
                         did not secure payment from two States, approximately
                         $4.5 million of the more than $13 million in program
                         benefits issued in FY 1997.

                         Upon issuance of State-funded FSP benefits, the food
                         coupons lose their identity.    When these benefits
                         were redeemed in FY 1997, through the FRB, Federal
                         funds would have been used to pay retailers for the
                         authorized transactions.

                         In FY 1998, States are continuing to not submit
                         payment for estimated benefits issued or for
                         subsequent adjustments to estimated amounts on a
                         timely basis. As of December 1997, three States owed
                         FNS more than $7.6 million for the cost of benefits
                         issued and the related administrative fees.

                         We recommended that FNS request a legal opinion from
                         the Office of the General Counsel (OGC) on whether
                         an Anti-Deficiency Act violation has occurred.
                         Additionally, FNS needs to ensure that States remit,


USDA/OIG-A/27401-11-HY                                                     Page 25
                         on a timely basis, payment for the cost of all
                         benefits issued and related administrative fees.

                         In FNS’ April 1, 1998 response to OIG’s issue paper
                         on the SOFSP, FNS disagreed with our conclusion that
                         a violation of the Anti-Deficiency Act may have
                         occurred.   On May 5, 1998, FNS requested a legal
                         opinion from OGC as to whether the Anti-Deficiency
                         Act was violated in FNS’ implementation of the SOFSP.
                         Also, FNS agreed to stress the need for timely
                         submission of reports to States.

Recommendation           Require States to timely submit required reports and
No. 1a                   payment for benefits and related administrative fees.


Finding No. 2            During FY 1997, three nationwide OIG audit reports,
Audit Reports            two for the FSP and one for the Food Distribution
Disclosed Areas of       Program on Indian Reservations (FDPIR); and ten
Noncompliance With       regional audit reports for the Child and Adult Care
Laws and                 Food   Program    (CACFP)    contained   instances   of
Regulations              noncompliance with laws and regulations in the FNS
                         programs.   These instances could be perceived as
                         being significantly sensitive by others.            OMB
                         Bulletin 93-06, "Audit Requirements for Federal
                         Financial Statements," as amended, contains reporting
                         requirements for such instances of noncompliance. We
                         reported the following instances of noncompliance.
                         Because the detailed results of our reviews and
                         recommended    actions    were   reported   to   agency
                         management in each audit report, we are making no
                         further recommendations herein.

                         Food Stamp Program
                         Reinvestment of Quality Control Penalties.     During
                         our nationwide review of the FSP and FNS’ efforts to
                         control error rates, "Reinvestment of Quality Control
                         Penalties, Audit Report No. 27099-4-At, dated
                         June 1997, we found that FNS regional offices’
                         monitoring of States reinvestment activities was not
                         always sufficient to ensure that initiatives were
                         accomplishing the planned objectives and projects,
                         and their costs were eligible and properly accounted
                         for. We also found that States claimed ineligible
                         costs. As a result, FNS could not fully evaluate the
                         effectiveness of error reduction activities.

                         We reviewed the reinvestment plans of 17 State
                         agencies and visited 11 projects to evaluate how the
                         projects were functioning and the actual activities
                         that were performed.    The 17 States had budgeted
                         $70.8 million for 45 reinvestment projects, of which
                         we questioned about $50.2 million of budgeted and
                         actual costs.

                         •     We questioned the eligibility of 11 projects
                               budgeted for $42.3 million because the activity
                               or a material portion of the work performed
                               under the projects represented basic/minimum
                               activities required for program administration
                               rather than enhanced error rate control
                               activities and/or were funded by reallocating
                               existing resources rather than by new or
                               increased expenditures.    Program regulations


USDA/OIG-A/27401-11-HY                                                      Page 26
                               require that a reinvestment activity must
                               represent new or increased expenditures, be
                               fully funded by the States, and not be funded
                               by a simple reallocation of ongoing program
                               resources.

                         •     The States also charged ineligible costs to
                               their reinvestment initiatives. We evaluated
                               the propriety of costs charged to the
                               30 projects conducted by the 11 States that we
                               visited. At the completion of fieldwork, the
                               States had charged $40.5 million to the
                               projects. We questioned $10.5 million of the
                               costs charged because (1) States did not
                               allocate the projects costs among all programs
                               that received substantial and direct benefits
                               from the activities, (2) cost accounting
                               procedural errors resulted in improper charges,
                               and (3) States claimed Federal matching funds
                               for reinvestment expenditures.         We also
                               questioned    the    remaining     budget    of
                               $10.9 million for projects that States had not
                               allocated costs among benefiting programs.

                               OMB Circular A-87, "Cost Principles for State
                               and Local Governments," provides that costs are
                               allocable to programs and functions to the
                               extent of the benefits received by the programs
                               and functions.      Any cost allocable to a
                               particular program or function may not be
                               shifted to other programs. Program regulations
                               set forth the principles for determining the
                               allowable costs of administering the FSP. The
                               principles are designed so that all federally
                               assisted programs bear their fair share of the
                               costs.

                         Retailer   Monitoring   with   Store   Tracking   and
                         Redemption Subsystem. During our nationwide review
                         of the FSP, "Retailer Monitoring with Store Tracking
                         and Redemption Subsystem (STARS)," Audit Report
                         No. 27601-8-Ch, dated January 1997, we found that in
                         37 of the 214 cases reviewed, retailers were
                         authorized or reauthorized under criteria not
                         supported by their applications, or without requested
                         documentation to verify applicants were bona fide
                         retailers. In addition, field office authorization
                         procedures did not include the use of STARS searches
                         to ensure the eligibility of applicants or to ensure
                         the timely removal of prior store owners.       As a
                         result, at the 6 field offices in our review, we
                         found 49 out of 106 instances where field offices
                         assigned multiple authorization numbers to a single
                         location.

                         The Food Stamp Program Improvement Act of 1994,
                         effective June 14, 1994, established new, more
                         stringent    criteria   for   evaluating    retailer
                         eligibility.   FSP regulations require retailers to
                         provide sufficient data for FNS to determine whether
                         the retailer’s participation will further the
                         purposes of the program.




USDA/OIG-A/27401-11-HY                                                    Page 27
                         Food Distribution Program on Indian Reservations
                         In Audit Report No. 27601-6-KC, dated June 1997,
                         "Food Distribution Program on Indian Reservations,"
                         we found that controls used to verify and detect
                         unreported income were not always applied or were not
                         in place. Also, controls did not always assure the
                         detection and prevention of households that were
                         simultaneously participating in the FDPIR and the
                         FSP.       We    determined     that  an    estimated
                         7,567 households received FDPIR commodities valued at
                         about $4 million for which they were not eligible
                         because their income exceeded established eligibility
                         guidelines.    We also found that households were
                         simultaneously participating in the FDPIR and FSP.
                         We determined that an estimated 2,093 households
                         obtained commodities valued at about $332,000 while
                         participating   in   the    FSP   and  an   estimated
                         1,951 households obtained FSP benefits valued at
                         about $1.4 million while participating in the FDPIR.

                         Current   procedures   allow    participating   FDPIR
                         households to switch between the FDPIR and the FSP.
                         However, households are not allowed to simultaneously
                         participate in both programs. Regulations state that
                         households are required to inform program officials
                         of their intentions. Also, participating households
                         are required to report all earned and unearned income
                         to the Indian Tribal Organizations (ITO)/local
                         agency. Prior to certification, the ITO/local agency
                         must verify all reported income.

                         Child and Adult Care Food Program
                         During FY 1997, the Office of Inspector General (OIG)
                         targeted 12 sponsors of the CACFP in 10 States and
                         found 11 of them to be seriously deficient in their
                         administration of the program.       As part of the
                         sponsor reviews, we conducted unannounced visits to
                         a substantial number of day care homes and found
                         widespread deficiencies in their operations.     Many
                         providers did not have adequate records to support
                         the meals they claimed or had no records at all, as
                         required by program regulations.         Claiming of
                         unallowable meals by providers appeared to be common.
                         Many of the children for whom the providers claimed
                         meals were not present when OIG visited, we
                         questioned whether they were actually in care or
                         whether some providers were eligible to claim the
                         meals they served to their own children.           We
                         identified in the 10 regional reports approximately
                         $4.4 million in questioned costs.

                         Because of the serious deficiencies, FNS has
                         terminated the participation of 5 of 12 sponsors.
                         Four of the five sponsors are being investigated for
                         fraud-related activities.


Providing an opinion on compliance with certain provisions of laws and
regulations was not an objective of our audit and, accordingly, we do not express
such an opinion. This report is intended for the information of the management
of FNS. However, this report is a matter of public record, and its distribution
is not limited.



USDA/OIG-A/27401-11-HY                                                    Page 28
We considered these instances of noncompliance in forming our opinion on whether
FNS’ FY 1997 financial statements are presented fairly, in all material respects,
in conformity with the applicable accounting standards now in effect for the
preparation of FNS’ financial statements, and this report does not modify the
opinion on FNS’ financial statements expressed in our report dated
April 17, 1998.




ROGER C. VIADERO
Inspector General

April 17, 1998




USDA/OIG-A/27401-11-HY                                                   Page 29
                                CHAPTER 5
                              ABBREVIATIONS



ABN        -     American Bank Note Company
AFMS       -     Agency Financial Management System
CACFP      -     Child and Adult Care Food Program
EBT        -     Electronic Benefits Transfer
FDPIR      -     Food Distribution Program on Indian Reservations
FFMIA      -     Federal Financial Management Improvement Act
FMFIA      -     Federal Managers’ Financial Integrity Act
FMS        -     Financial Management Service
FNS        -     Food and Nutrition Service
FRB        -     Federal Reserve Bank
FSP        -     Food Stamp Program
FY         -     Fiscal Year
GAO        -     General Accounting Office
GOALS      -     Government On-Line Accounting Link System
ITO        -     Indian Tribal Organization
OGC        -     Office of the General Counsel
OIG        -     Office of Inspector General
OMB        -     Office of Management and Budget
SAE        -     State Administrative Expenses
SGL        -     Standard General Ledger
SOFSP      -     State Option Food Stamp Program
STARS      -     Store Tracking and Redemption Subsystem
SUC        -     Summary Level Adjustments
Treasury   -     U.S. Department of the Treasury
USDA       -     U.S. Department of Agriculture
WIC        -     Special Supplemental Nutrition Program for Women, Infants, and
                 Children




USDA/OIG-A/27401-11-HY                                                 Page 30
                    U.S DEPARTMENT OF AGRICULTURE




                         FOOD AND NUTRITION SERVICE




                           FINANCIAL STATEMENTS




                           AS OF SEPTEMBER 30, 1997




USDA/OIG-A/27401-11-HY                                Page 31
                             CHAPTER 6
                  FNS’ OVERVIEW OF FISCAL YEAR 1997
                       OPERATIONS AND RESULTS


Introduction to the Agency

Agency Goals         The Food and Nutrition Service (FNS), previously the Food and Consumer
                     Service, was established August 8, 1969, to administer the food assistance
                     programs of the U.S. Department of Agriculture. The program goals are
                     to provide needy persons with access to a more nutritious diet, to improve
                     the eating habits of the Nation’s children, and to help America’s farmers
                     by providing an outlet for the distribution of foods purchased under farm
                     assistance authorities. Most FNS programs are operated in a Federal/State
                     partnership, with State and local agencies administering the program at the
                     actual service delivery level.

Programs             The major FNS programs fall into one of two program types: open-ended
                     entitlement (e.g., Food Stamp and National School Lunch programs) or
                     fixed grant (e.g., Supplemental Nutrition Program for Women, Infants, and
                     Children (WIC)). Regardless of type, the program funding source is
                     specific, direct appropriation. This has an impact on FNS financial and
                     program performance. In entitlement programs, all persons requesting
                     program benefits and meeting the established eligibility requirements must
                     be served. When the growth of entitlement programs exceeds anticipated
                     levels, it may be necessary to request supplemental appropriations. In
                     fixed grant programs such as WIC, funding levels are set and participation
                     levels must be managed to keep the program within the available budget.

                     FNS is responsible for paying program benefit costs and a portion of State
                     administrative expenses for most food assistance programs, for planning
                     and coordinating the purchase and distribution of commodities to State
                     agencies, and for implementing program statutes through promulgation of
                     regulations and instructions. FNS staff provide training and assistance to
                     State agencies, assure proper funds allocation and control, conduct program
                     monitoring and evaluation, and develop program policy. In a few
                     instances, when State law prohibits a State from disbursing funds to
                     particular types of entities or where no State agency has assumed
                     administrative responsibility, FNS assumes operation of certain child
                     nutrition programs.

FNS Funding          Total expenses for FNS programs in fiscal year 1997 totaled $35.8 billion.
                     The Food Stamp Program ($22.8 billion) accounted for 63.7 percent of the
                     total Agency appropriation while the Child Nutrition programs ($8.3

USDA/OIG-A/27401-11-HY                                                                 Page 32
                  billion) accounted for approximately 23.2 percent and the Supplemental
                  Nutrition Program for Women, Infants, and Children ($3.8 billion)
                  accounted for 10.6 percent. All other programs and Federal administrative
                  costs accounted for the remaining 2.5 percent.




FNS Locations
and Staff         Agency headquarters are in Alexandria, Virginia. FNS maintains seven
                  regional offices. The regional locations are Boston, Massachusetts;
                  Robbinsville, New Jersey; Atlanta, Georgia; Chicago, Illinois; Dallas,
                  Texas; Denver, Colorado; and San Francisco, California. Additionally, as
                  of the close of the fiscal year, the Agency maintained 70 field offices, 6
                  compliance offices, 1 administrative review office, two seasonal SFSP
                  locations and one computer support center (Minneapolis, Minnesota).
                  Whenever possible, these additional offices are co-located with one another
                  and with the seven regional offices.

                  As of September 30, 1997, FNS had employed 1,806 full-time equivalents
                  (FTE’s) during fiscal year 1997. Of the FTE’s, 692 were used in
                  headquarter’s functions and 1,114 were used in field functions. Of the
                  field FTE’s, 789 were used in the seven regional offices. The balance
                  were used in satellite and special purpose field locations.

Limitations of
Financial
Statements        The financial statements that follow have been prepared to report the
                  financial condition and results of operations of the Food and Nutrition

USDA/OIG-A/27401-11-HY                                                              Page 33
                     Service pursuant to the requirements of the Chief Financial Officers Act
                     of 1990.

                     While the statements have been prepared from the records of the Food and
                     Nutrition Service in accordance with the formats prescribed by Office of
                     Management and Budget (OMB) Bulletin 94-01, "Form and Content of
                     Financial Statements” and OMB Bulletin 97-01, these statements are
                     different from the financial reports used to monitor and control budgetary
                     resources which are prepared from the same books and records.

                     These statements should be read with the realization that they are for a
                     sovereign entity, that unfunded liabilities reported in the financial
                     statements cannot be liquidated without the enactment of an appropriation,
                     and that the payment of all liabilities other than for contracts can be
                     abrogated by the sovereign entity.

                     Financial and program activity information in this document reflects the
                     status of the Agency at the close of the fiscal year. Other Agency
                     publications may reflect changes, usually minor, that have occurred
                     subsequent to the preparation of this document.


Food Stamp Program

Program
Mission              The Food Stamp Program is the Nation's principal food assistance
                     program, a vital component of the Federal safety net that protects needy
                     persons against hunger. Its initial authorization was granted by the Food
                     Stamp Act of 1964. The program enables low-income households to
                     improve their diets by issuing monthly allotments of coupons (or electronic
                     benefits) redeemable for food at retail stores. Eligibility and allotment
                     amounts are based on household size and income, asset limitations,
                     housing costs, work requirements, and other factors. Benefits are adjusted
                     annually to reflect changes in the cost of the Thrifty Food Plan (a market
                     basket of foods for a nutritious low-cost diet). The Federal Government
                     pays the full cost of benefits and funds over half of the expenses incurred
                     by the States to administer the program.

Participation        Participation in 1997 fell to an annual average of 22.9 million persons –
                     down by 2.6 million persons (10.5 percent) from the annual average in
                     1996. Part of this decrease is attributable to favorable economic conditions
                     and a continuation of the downward participation trend that began in 1995.
                     In addition, a portion of the decrease is attributable to Welfare Reform
                     legislation which affected eligibility for food stamps in a number of ways
                     such as limiting eligibility for legal resident aliens, changing household
                     definitions, and limiting the amount of time an able-bodied adult can
                     receive food stamps. Whereas almost 11 percent of the total U.S.

USDA/OIG-A/27401-11-HY                                                                  Page 34
                  population received food stamps in 1994, less than 9 percent received food
                  stamps in 1997.




                  The most recent survey of household characteristics, conducted during
                  fiscal year 1996, indicates that 51 percent of all participants were children
                  under 18 years of age – most of them in single parent households.
                  Additionally, 7.3 percent of all participants were elderly adults age 60 or
                  older.




USDA/OIG-A/27401-11-HY                                                                Page 35
                  The gross income of about 91 percent of “cash only” households was
                  below the Federal poverty level; 42 percent were at or below 50 percent
                  of poverty. Over 10 percent of food stamp households had no income.




USDA/OIG-A/27401-11-HY                                                          Page 36
Benefits            Benefit costs were $19.57 billion in fiscal year 1997 compared to $22.44
                    billion in 1996. The average monthly benefit per person decreased (again,
                    due to Welfare Reform legislation) from $73.22 to $71.34 during the same
                    time period. In addition to benefit costs, the food stamp appropriation
                    includes the Federal share of State administrative costs, grants to States for
                    Employment and Training (E&T) activities, and other Federal costs such
                    as printing and distribution of stamps. Total expenses for the Food Stamp
                    Program (includes $1.2 billion for Puerto Rico) were $22.8 billion in fiscal
                    year 1997.

Program Integrity   During fiscal year 1996, FNS continued its aggressive payment accuracy
                    program with regional offices concentrating even greater efforts to work
                    directly with their States towards improved accuracy. While payment
                    accuracy involves a variety of techniques, State commitment, beginning at
                    the top levels of management, is the most effective tool. FNS continued
                    to promote the need for this commitment as the key to implementation of
                    successful payment accuracy efforts. These efforts continue to be
                    productive with the FY 1996 combined payment error rate (9.22) declining
                    by half a percentage point from FY 1995 (9.72) and by 1.1 percentage
                    points from the FY 1994 rate (10.32).




                    Besides the above mentioned payment accuracy initiatives, FNS continues
                    to provide enhanced funding to those States who maintain error rates

USDA/OIG-A/27401-11-HY                                                                  Page 37
                    below a certain level. In fiscal year 1997, six State agencies received a
                    total of $15,289,752 based on their fiscal year 1996 payment accuracy
                    performance: Alabama, Arkansas, Hawaii, Kentucky, Massachusetts and
                    South Dakota.

Child Nutrition Programs

Program Mission     Objectives of the Child Nutrition Programs are to provide children with
                    access to nutritious meals away from home and to improve their diets.
                    School feeding programs, such as National School Lunch and School
                    Breakfast, enhance learning by reducing malnutrition and hunger, and
                    fostering a healthy learning environment. The Child and Adult Care Food
                    Program provides for the nutritional well-being of preschool children and
                    adults in day care homes and centers. The Summer Food Service Program
                    serves children in low-income areas during the Summer months. In each
                    program, assistance to improve diets is provided for all children, but
                    programs are targeted to economic needy children. FNS provides the
                    States with cash payments based on per-meal rates that vary according to
                    family income. Children from families with incomes below 130 percent
                    of the poverty level qualify for free meals; reduced-price eligibility is set
                    between 130 and 185 percent of the poverty level. Food donations are
                    also provided. Minimum commodity support ("entitlement") is based on
                    a per-meal rate; surplus ("bonus") commodities are provided based on
                    available supplies from USDA surplus commodity purchases.
                    Free/reduced-price eligibility, cash payment rates, and the commodity
                    entitlement rate are adjusted annually.

Program
Performance         In fiscal year 1997, a total of 7.27 billion meals were served in Child
                    Nutrition Programs, up from 7.09 billion in fiscal year 1996. The share
                    of total meals served free or reduced-price was 69 percent slightly more
                    than the 68.5 percent a year before, reflecting FNS' goal to target the
                    programs to serve predominantly children from low income families.




USDA/OIG-A/27401-11-HY                                                                  Page 38
                  On any given school day in fiscal year 1997, one of every two
                  schoolchildren in America ate lunch through the National School Lunch
                  Program. The program was available in over 94,740 schools and
                  institutions with a total enrollment of 46.3 million children; reaching 87.8
                  percent of all school children. Average daily participation was 26.3
                  million, up 1.5 percent from fiscal year 1996. Free and reduced-price
                  meals served increased 2.4 and 5.5 percent respectively, while full-price
                  meals decreased by 0.3 percent.

                  Expansion of the School Breakfast Program, particularly in low-income
                  areas, is mandated by Congress. Since fiscal year 1993, program
                  availability has risen from 55,126 institutions with an enrollment of 25.8
                  million to 68,716 institutions with an enrollment of 33.9 million in fiscal
                  year 1997. The program is now available to 64 percent (or two thirds) of
                  the student population, as compared to only 53 percent in fiscal year 1993.
                  Average daily participation in fiscal year 1997 was 6.9 million, up 5.2
                  percent from the prior year. The portion of meals served free or at
                  reduced price remained almost unchanged from fiscal year 1996 to fiscal
                  1997, at 86.5 percent.




USDA/OIG-A/27401-11-HY                                                               Page 39
                    Total meal service in the Child and Adult Care Food Program grew by
                    about one percent between fiscal years 1996 and 1997. In child care
                    centers, approximately 70.4 percent of all meals were served free or at
                    reduced price, slightly more than the 69.7 percent in fiscal year 1996. In
                    family day care homes, all meals are reimbursed at the free rate.

                    The Summer Food Service Program experienced an increase in program
                    activity in fiscal year 1997. Some 133.2 million meals were served in the
                    program, about 6.3 percent more than in the previous year. All of these
                    meals were served free.

Program Benefits    The Child Nutrition expenses totaled $8.3 billion, including cash,
                    entitlement commodities and the Special Milk Program, in fiscal year
                    1997. In addition to subsidizing meal service, the appropriation also helps
                    States pay administrative expenses of operating the programs, funds
                    Nutrition Education and Training activities, and covers the cost of
                    mandated nutrition studies and surveys.

The Supplemental Nutrition Program For
Women, Infants, and Children (WIC)

Program Mission     The goal of the WIC Program is to promote the health of nutritionally at
                    risk low-income pregnant or postpartum women, infants and children up
                    to age 5. It has three components: a supplemental food package rich in


USDA/OIG-A/27401-11-HY                                                                Page 40
                  nutrients often lacking in the diets of the target population, nutrition
                  education and counseling, and referrals to health care services (e.g.,
                  prenatal and well-baby care, immunization, smoking cessation, and drug
                  and alcohol abuse counseling). Eligibility is based on income limitations
                  (less than 185 percent of federal poverty guidelines), health risk, and State
                  residency requirements. The WIC Farmers' Market Nutrition Program --
                  funded from the WIC appropriation-- provides many participants with
                  fresh fruits and vegetables while promoting awareness and use of farmers'
                  markets.

                  WIC's effectiveness was demonstrated in a five state study conducted in
                  1990. Women who participated during their pregnancies had lower
                  Medicaid costs for themselves and their babies than non-participating
                  women. WIC participation was linked to longer gestation periods, higher
                  birthweights, and lower infant mortality.

Participation     Since fiscal year 1993, participation has risen from 5.9 million to 7.4
                  million, an increase of 25.2 percent. However, the rate of growth has
                  declined from 9.4 percent in fiscal year 1993 to 3.1 percent in fiscal year
                  1997. The slowdown is due to several factors: a high proportion of
                  eligibles reached in some states , infrastructure limitations in others, and
                  temporary retrenchments during fiscal year 1997 due to funding concerns
                  (a supplemental was approved late in the year). Compared to fiscal year
                  1996, women increased by 3.8 percent, children by 3.3 percent, and
                  infants by 2.0 percent. Program expenditures totaled $3.8 billion.




USDA/OIG-A/27401-11-HY                                                                Page 41
Cost Containment   A substantial portion of the participation growth reflects the impact of
                   mandatory cost containment measures. Reducing the average food cost per
                   person has enabled WIC to reach more participants with the same funds.
                   The most successful strategy has been competitive rebate contracts
                   between State Agencies and manufacturers of infant formula, the most
                   expensive item. All states and major Tribal Organizations receive infant
                   formula rebates; ten states received rebates for other foods in fiscal year
                   1997. The Infant Formula Procurement Act of 1992 enhanced competition
                   by enabling FNS to solicit bids for multi-State contracts. In fiscal year
                   1997, ten state agencies, which included three multi-state contracts, were
                   in effect for infant juice and cereal. Rebate savings in fiscal year 1997 are
                   estimated at $1.30 billion. Rebates reduced the monthly food cost per
                   person by nearly 30.5 percent (from $45.56 to $31.68). The chart below
                   shows the monthly food cost, with rebates vs. without rebates, for the past
                   five years.




USDA/OIG-A/27401-11-HY                                                                 Page 42
Targeting High
Risk Groups and
Promoting Health   WIC assistance is targeted to the highest risk groups. During the July
                   1996-June 1997 period, 75.2 percent of all participants were in the top
                   three priority categories. The percentage has gradually declined as WIC
                   reaches a higher proportion of the eligible population. A major factor in
                   WIC's effectiveness is promotion of nutrition education through individual
                   and group counseling and through provision of educational materials. At
                   least one-sixth of funds available for administration and program services
                   must be expended on nutrition education activities. Emphasis is placed on
                   teaching participants to deal with specific nutritional risks, on achieving
                   positive change in dietary habits, and on the dangers of substance abuse
                   during pregnancy. Breastfeeding is promoted through nutrition education
                   during pregnancy, providing an enhanced food package to women who
                   receive no infant formula, permitting breastfeeding women to participate
                   longer than other postpartum women, and providing a support system to
                   encourage success.

Commodity Assistance Programs

Program Mission    FNS provides assistance to a variety of groups through food distribution.
                   In fiscal year 1997, the Commodity Assistance Programs appropriation
                   included two programs: The Emergency Food Assistance Program
                   (TEFAP) and the Commodity Supplemental Food Program (CSFP).


USDA/OIG-A/27401-11-HY                                                               Page 43
                  TEFAP helps States relieve hunger and distress by making both purchased
                  commodities and surplus USDA foods available to soup kitchens, food
                  banks, and other emergency feeding organizations. FNS also subsidizes
                  State administrative costs, such as warehousing and delivering
                  commodities. The allocation of food and administrative grants is based on
                  a formula which combines the number of persons below the poverty level
                  and the number of unemployed persons. CSFP is a food distribution
                  predecessor of the WIC Program; its original goal—and its highest
                  priority—is to serve a similar target group of women, infants and children.
                  Its second priority is to provide food packages to improve the health of
                  low-income elderly persons. As the WIC Program has expanded, the
                  women-infant-children component of CSFP has contracted.

Participation     Total CSFP participation in fiscal year 1997 was 370.1 thousand, virtually
                  identical to fiscal year 1993. However, the Elderly share has risen from
                  38.2 percent to 65.7 percent, proving that the women-infant-children
                  component has decreased.

Program Costs     TEFAP costs totaled $151 million in fiscal year 1997. Program costs for
                  CSFP were $90 million--$71.9 million for entitlement commodities and
                  $18 million for administrative costs.

Other Commodity
Programs          Other commodity assistance programs include the Food Distribution
                  Program on Indian Reservations (FDPIR) and the Nutrition Program for
                  the Elderly (NPE). FDPIR-- an alternative to the Food Stamp Program for
                  tribal organizations—served an average of 124 thousand needy persons per
                  month; FNS commodity and administrative costs totaled $66.2 million.
                  The Nutrition Program for the Elderly subsidized 247 million meals
                  served in senior centers or delivered to the homebound; FNS costs were
                  $144.8 million.




USDA/OIG-A/27401-11-HY                                                              Page 44
                                CHAPTER 7
                     FNS’ SUPPLEMENTAL INFORMATION
                     FOR FISCAL YEAR 1997 OPERATIONS


Introduction


Purpose        Information provided in this supplementary section is intended to assist the reader
               in the interpretation of the Food and Nutrition Service’s operating results for fiscal
               year 1997. It is also intended to demonstrate the nation-wide scope of the
               Agency’s programs. Note that the figures presented in the fiscal year 1996
               Supplemental for fiscal years 1996 and 1995 were preliminary and subject to
               change; therefore, last year's and this year's Supplemental may not match.

FNS Regions The following data is primarily presented at the regional level.              Food and
            Nutrition Service regions are as follows:


                                        Food and Nutrition Service
                                      Organization of Regional Offices

                       Region              Abbreviation                States Included

               Northeast Regional             NERO             CT, ME, MA, NH, NY, RI, VT
               Office

               Mid-Atlantic                   MARO            DE, DC, MD, NJ, PA, PR, VA,
               Regional Office                                         VI, WV

               Southeast Regional             SERO            AL, FL, GA, KY, MS, NC, SC,
               Office                                                     TN

               Midwest Regional              MWRO                 IL, IN, MI, MN, OH, WI
               Office

               Southwest Regional             SWRO                 AR, LA, NM, OK, TX
               Office

               Mountain Plains                MPRO            CO, IA, KS, MO, MT, NE, ND,
               Regional Office                                        SD, UT, WY

               Western Regional                WRO             AK, AZ, CA, GU, HI, ID, NV,
               Office                                           OR, WA, Pacific Territories


USDA/OIG-A/27401-11-HY                                                                     Page 45
Limitations   Slight differences may exist between data presented in this supplementary section
              and similar data occurring elsewhere in this document. These differences result
              primarily from rounding at the regional level.


Food Stamp Program

Food Stamp Program Regional Activity: The following tables provide regional level Food Stamp
Program performance data for the period fiscal year 1993 through fiscal year 1997.


                                  Food Stamp Program
                      Average Annual Program Participation by Region
                                       (Thousands)

              REGION         FY 93      FY 94      FY 95      FY 96      FY 97

              NERO            3,052      3,174      3,162      3,026      2,775

              MARO            3,110      3,182      3,151      3,057      2,781

              SERO            5,730      5,635      5,375      5,243      4,741

              MWRO            4,622      4,626      4,375      4,053      3,572

              SWRO            4,335      4,385      4,154      3,905      3,388

              MPRO            1,702      1,691      1,616      1,551      1,380

              WRO             4,431      4,774      4,785      4,706      4,222

              TOTAL          26,982     27,468     26,619     25,541    22,859




USDA/OIG-A/27401-11-HY                                                                Page 46
                                  Food Stamp Program
                           Total Program Issuance by Region
                                       (Millions)

           REGION         FY 93       FY 94       FY 95       FY 96      FY 97

           NERO            2,534       2,704       2,834       2,801      2,461

           MARO            2,601       2,703       2,747       2,736      2,410

           SERO            4,683       4,679       4,591       4,615      3,972

           MWRO            3,855       3,848       3,722       3,489      3,003

           SWRO            3,589       3,672       3,598       3,468      2,917

           MPRO            1,328       1,329       1,314       1,291      1,117

           WRO             3,416       3,813       3,959       4,041      3,690

           TOTAL         $22,006     $22,749     $22,766     $22,441    $19,570


                               Food Stamp Program
                    Average Monthly Per Person Benefit by Region
                                     ($/Person)

           REGION           FY 93       FY 94       FY 95       FY 96    FY 97

           NERO              69.18       70.99       74.70      77.13     73.88

           MARO              69.70       70.78       72.65      74.58     72.21

           SERO              68.11       69.19       71.18      73.35     69.81

           MWRO              69.50       69.32       70.89      71.73     70.04

           SWRO              68.99       69.78       72.17      74.01     71.74

           MPRO              65.02       65.47       67.74      69.34     67.46

           WRO               64.25       66.54       68.95      71.56     72.83

           NATIONAL         $67.96      $69.01     $71.27      $73.22    $71.34



USDA/OIG-A/27401-11-HY                                                            Page 47
Food Stamp Program Compliance Branch Activity: During fiscal year 1997, the Compliance
Branch conducted investigations of 4,627 stores nationwide. Of these investigations, 2,084
(nearly 45% percent) documented evidence of food stamp program violations. The evidence was
sufficient in 1,584 of these cases to warrant the store being disqualified from the program for a
specified period of time, or to pay a Civil Money Penalty in lieu of being disqualified. Of those
1,584 cases, Compliance Branch investigators uncovered trafficking in 712 stores. Yearly food
stamp redemptions of the 2,084 stores diverting program benefits totaled $154.5 million. Annual
redemptions for the 712 stores found trafficking were $79.5 million.


                                     Food Stamp Program
                                   Compliance Branch Activity

                        Activity                        FY 1996       FY 1997

                 Stores Investigated                       4,862         4,627

                 Trafficking Found Occurring                 743           712

                 Violations Detected                       2,283         2,084

                 Violations Warranting
                 Disqualification or Civil Money           1,418         1,584
                 Penalties



Child Nutrition Programs

Child Nutrition Programs Regional Activity: The following tables provide regional level
performance data for the National School Lunch Program, the School Breakfast Program, and the
Child and Adult Care Food Program over the period fiscal year 1993 through fiscal year 1997.




USDA/OIG-A/27401-11-HY                                                                  Page 48
                           National School Lunch Program
                 Monthly Average Daily Program Participation by Region
                                     (Thousands)

          REGION         FY 93       FY 94       FY 95        FY 96      FY 97

          NERO            2,531      2,605       2,657         2,695     2,739

          MARO            3,161      3,215       3,275         3,282     3,295

          SERO            5,330      5,398       5,455         5,520     5,618

          MWRO            4,198      4,261       4,336         4,343     4,391

          SWRO            3,611      3,671       3,714         3,755     3,813

          MPRO            2,319      2,329       2,355         2,360     2,380

          WRO             3,667      3,767       3,861         3,957     4,055

          DOD *              38         35          33           32         32

          TOTAL          24,855     25,281      25,685        25,944   26,323


              * The Department of Defense oversees schools.




USDA/OIG-A/27401-11-HY                                                           Page 49
                             School Breakfast Program
                Annual Average Daily Program Participation by Region
                                    (Thousands)

         REGION          FY 93     FY 94       FY 95      FY 96        FY 97

         NERO              481        539        589          618        648

         MARO              655        691        749          743        786

         SERO            1,445      1,546       1,637      1,704       1,791

         MWRO              467        539        662          693        732

         SWRO            1,128      1,182       1,230      1,273       1,330

         MPRO              282        346        373          393        407

         WRO               901        991       1,078      1,160       1,230

         TOTAL           5,359      5,834       6,318      6,584       6,924


                         Child and Adult Care Food Program
                         Average Daily Attendance by Region
                                    (Thousands)

         REGION          FY 93     FY 94       FY 95      FY 96        FY 97

         NERO              222        251        268          276        282

         MARO              194        214        243          258        244

         SERO              283        321        360          421        414

         MWRO              365        393        415          414        421

         SWRO              269        309        328          320        323

         MPRO              270        293        301          296        292

         WRO               374        404        441          430        439

         TOTAL           1,977      2,185       2,356      2,415       2,415




USDA/OIG-A/27401-11-HY                                                         Page 50
Availability of National School Lunch Program: The following table displays the trend in
National School Lunch Program participation in relation to the enrollment levels in participating
schools.


                                National School Lunch Program
                Percent of Students Enrolled in Schools Participating in NSLP
                              --Based on Average Participation--
                                          (Thousands)

         Item                               FY 93      FY 94      FY 95       FY 96     FY 97

 Enrollment in NSLP Schools                 43,468     44,465     45,136    45,309      46,269

 Average Participation                      24,855     25,281     25,685     25,944     26,324

 Percent Participation of Enrollment         57.18      56.86      56.90       57.26     56.89


Cash Payments to States: The programs are operated under an agreement entered into by State
agencies and the Department. Funds are made available by letters of credit to State agencies for
use in reimbursing participating schools and other institutions. Sponsors make application to the
State agencies and, if approved, are reimbursed on a per-meal basis in accordance with the terms
of their agreements and the rates prescribed by law. The reimbursement rates are adjusted
annually to reflect changes in the Consumer Price Index for Food Away From Home as provided
for in Section 11 of the National School Lunch Act.

National School Lunch Program (NSLP). Assistance is provided to the States for the service of
lunches and snacks to children in participating schools and institutions, regardless of household
income. Additional assistance is provided to the States for serving lunches and snacks free or
at a reduced price to needy children. States must match a portion of the Federal cash grant.
Schools which, in the second previous school year, served at least 60 percent of their lunches at
free or reduced prices receive an additional 2 cents per meal in assistance.




USDA/OIG-A/27401-11-HY                                                                  Page 51
                                       National School Lunch Program
                                                                          1
                                   Reimbursement Rates: July Through June
                                                   (Cents)

                                    92-93       93-94        94-95        95-96      96-97

       LESS THAN 60% SERVED FREE:

       Paid                         16.25        16.50       17.00        17.25       18.00

       Reduced                    129.50        132.50      135.75       139.50      149.00

       Free                       169.50        172.50      175.75       179.50      189.00

       60% OR MORE SERVED FREE:

       Paid                         18.25        18.50       19.00        19.25       20.00

       Reduced                    131.50        134.50      137.75       141.50      151.00

       Free                       171.50        174.50      177.75       181.50      191.00

       MAXIMUM PAYMENT RATES:

       Paid                         24.25        24.50       25.00        25.25       26.00

       Reduced                    146.50        149.50      152.75       156.50      166.00

       Free                       186.50        189.50      192.75       196.50      206.00

       SUPPLEMENTS:

       Paid                           4.25        4.25        4.50            4.50     4.00

       Reduced                      23.25        23.75       24.00        24.75       26.00

       Free                         46.50        47.50       48.25        49.25       51.75

       Commodity Reimbursement Rate

                                    14.00        14.00       14.50        14.50       14.50

       1
           Rates higher in Alaska and Hawaii.


School Breakfast Program (SBP). Federal reimbursement is based on the number of breakfasts
served to children from low, lower, or upper income families. Schools that served at least 40
percent of their lunches at free or reduced prices in the second preceding year and had unusually

USDA/OIG-A/27401-11-HY                                                                   Page 52
high preparation costs, which exceeded regular breakfast per meal reimbursement, receive higher
subsidies in both the free and reduced-price categories. FNS also provides expansion grants as
authorized by P.L. 101-147, the Child Nutrition and WIC Reauthorization Act of 1989.


                                           School Breakfast Program
                                                                          1
                                    Reimbursement Rates: July Through June
                                                   (Cents)

                                    92-93           93-94     94-95       95-96       96-97

       NON-SEVERE NEED:

       Paid                         18.75            19.00    19.25           19.50    20.00

       Reduced                      64.50            66.00    67.50           69.75    74.50

       Free                         94.50            96.00    97.50           99.75   104.50

       SEVERE NEED:

       Paid                         18.75            19.00    19.25           19.50    20.00

       Reduced                      82.25            84.25    86.00           88.50    94.50

       Free                        112.25           114.25   116.00       118.50      124.50

       1
           Rates are higher in Alaska and Hawaii.


Child and Adult Care Food Program (CACFP). Nonprofit child care centers and family and
group day care homes receive subsidies for meals served to preschool and other children.
Profit-making child care centers receiving compensation under Title XX of the Social Security
Act (Title XX) may participate in the program if 25 percent of the children enrolled are Title XX
participants. Certain adult day care centers are also eligible for participation in this program if
they provide meals to persons 60 years or older or to adults who are functionally impaired. They
must be nonprofit unless they receive compensation under Title XIX or Title XX of the Social
Security Act for at least 25 percent of their enrollees. The Child and Adult Care Food Program
provides reimbursement to State agencies at varying rates for breakfasts, lunches, suppers, and
meal supplements. Two percent of total CACFP obligations from the second preceding year are
provided for audits and administrative reviews of CACFP institutions. Under the Regional Office
Administered Program (ROAP), the Office of the Inspector General contracts with Certified
Public Accounting firms for audits of the child care institutions directly administered by FNS.
FNS may use some of these funds not needed for audits for administrative reviews of child care
sponsors for which the regional office is responsible. As authorized in Public Law 101-147, FNS
will, through the end of fiscal year 1995, continue to administer grants to homeless shelters to
determine the most effective way of providing meals to homeless children under the age of 6 years.



USDA/OIG-A/27401-11-HY                                                                    Page 53
                                     Child and Adult Care Food Program
                                                                         1
                                   Reimbursement Rates: July Through June
                                                   (Cents)

                                      92-93      93-94        94-95          95-96    96-97

     BREAKFASTS (in Centers):

     Paid                             18.75      19.00        19.25           19.50    20.00

     Reduced                          64.50      66.00        67.50           69.75    74.50

     Free                             94.50      96.00        97.50           99.75   104.50

     LUNCHES and SUPPERS (in Centers):

     Paid                             16.25      16.50        17.00           17.25    18.00

     Reduced                         129.50     132.50       135.75          139.50   149.00

     Free                            169.50     172.50       175.75          179.50   189.00

     SUPPLEMENTS (in Centers):

     Paid                               4.25      4.25         4.50            4.50     4.00

     Reduced                          23.25      23.75        24.00           24.75    26.00

     Free                             46.50      47.50        48.25           49.25    51.75

     COMMODITY REIMBURSEMENT RATE

                                      14.00      14.00        14.50           14.50    14.50

       1
           Rates higher in Alaska and Hawaii.




Special Supplemental Food Program for Women, Infants, and Children

Special Supplemental Food Program for Women, Infants, and Children (WIC): The following
tables provide regional level performance data for the WIC Program over the period fiscal year
1993 through fiscal year 1997.




USDA/OIG-A/27401-11-HY                                                                   Page 54
                      Special Supplemental Food Program for
                        Women, Infants and Children (WIC)
                   Average Monthly Participation Level by Region
                                    (Thousands)

      REGION         FY 93        FY 94         FY 95       FY 96    FY 97

      NERO                651        686          714          729     742

      MARO                813        873          891          913     928

      SERO               1,192     1,267        1,321        1,353   1,391

      MWRO                964      1,012        1,046        1,051   1,044

      SWRO                880        948        1,008        1,031   1,072

      MPRO                438        465          481          485     492

      WRO                 984      1,225        1,433        1,626   1,740

      TOTAL              5,922     6,476        6,894        7,188   7,409




USDA/OIG-A/27401-11-HY                                                   Page 55
                          Special Supplemental Food Program for
                            Women, Infants, and Children (WIC)
                    Average Monthly Food Cost Per Participant by Region
                                         ($/Person)

        REGION            FY 93         FY 94         FY 95         FY 96        FY 97

        NERO               32.31         32.76          32.05        32.69        33.02

        MARO               33.48         33.62          33.92        34.67        34.88

        SERO               27.42         28.11          29.40        29.94        30.81

        MWRO               29.27         28.57          29.39        30.76        30.77

        SWRO               27.42         27.08          26.93        27.85        28.02

        MPRO               29.26         29.26          29.54        30.80        30.84

        WRO                30.65         31.07          31.78        32.12        33.13

        TOTAL              29.76         29.91          30.40        31.19        31.68


Breastfeeding Promotion Efforts: The WIC program promotes breastfeeding as the best form of
infant feeding through the provision of support and encouragement to new mothers and through
nutrition education during pregnancy. In addition, breastfeeding WIC mothers receive a larger
food package and, if otherwise eligible, are able to stay on WIC for a longer period of time than
non breastfeeding postpartum women. By law, States are required to expend at least $21 per
pregnant and breastfeeding participant for breastfeeding promotion and support. Many States
spend more than this minimum requirement on breastfeeding promotion.

Between 1993 and 1996 the number of breastfeeding women served by the WIC Program has
increased by over 50 percent, from 209,000 to 321,000. Over that same period, breastfeeding
women accounted for 35-40 percent of the total WIC postpartum caseload in any individual year.
Looking solely at the ratio of breastfeeding women to total postpartum women suggests that the
rate of breastfeeding in the WIC Program did not improve over the time period and actually
decreased from 1993 to 1996. However, this comparison obscures increases in high priority
breastfeeding women because significant funding increases have allowed the program to expand
participation among lower priority postpartum women at an even greater rate than higher priority
breastfeeding women. Research has documented the positive impact of nutrition education on
breastfeeding rates among WIC participants. Recently enacted legislation will provide FNS with
accurate measures of the initiation and duration of breastfeeding among WIC participants.




USDA/OIG-A/27401-11-HY                                                                  Page 56
                Special Supplemental Food Program for Women, Infants, and
                                      Children (WIC)
                    Percent of WIC Postpartum Women Who Breastfeed
                                       (Thousands)

               Fiscal     Breastfeeding        Total             Percent
               Year         Women            Postpartum       Breastfeeding
                                              Women             of Total

                1993          209               544               38.4

                1994          236               656               36.0

                1995          268               743                36.1

                1996          283               791               35.8

                1997          321               839               38.3



Commodity Assistance Programs

Commodity Assistance Programs (CAP): The Commodity Assistance Programs appropriation
includes two programs, the Commodity Supplemental Food Program (CSFP) and The Emergency
Food Assistance Program (TEFAP). The following tables provide participation data by region
and by program component for CSFP over the period fiscal year 1993 through fiscal year 1997.




USDA/OIG-A/27401-11-HY                                                             Page 57
                      Commodity Supplemental Food Program
                   Average Monthly Participation Level by Region
                                   (Thousands)

         REGION          FY 93     FY 94         FY 95           FY 96     FY 97

         NERO               24         26           34              36           44

         MARO               15         14           13              12           12

         SERO               34         31           29              26           24

         MWRO              129        122          115             105          105

         SWRO               77         79           82              86           92

         MPRO               50         47           46              47           46

         WRO                41         44           46              46           47

         TOTAL             370        365          364             358          370



                         Commodity Supplemental Food Program
                            WIC and Elderly Components
                                      (Thousands)

          Fiscal      Women,           Elderly           Total       Percent
          Year      Infants, and       Persons                         WIC
                      Children                                       of Total

           1993           229            142             371             61.7

           1994           200            163             363             55.1

           1995           164            200             364             45.1

           1996           137            219             356             38.5

           1997           127            243             370             34.3




USDA/OIG-A/27401-11-HY                                                                Page 58
                                      CHAPTER 8
                                      FNS’ FY 1997
                           FINANCIAL STATEMENTS AND NOTES

                                      UNITED STATES DEPARTMENT OF AGRICULTURE
                                             FOOD AND NUTRITION SERVICE
                                           STATEMENT OF FINANCIAL POSITION
                                                AS OF SEPTEMBER 30, 1997
                                              (Amounts shown are in thousands)


ASSETS
     Entity Assets
            Federal Assets
                   Fund Balance with the U.S. Treasury and Cash (note 1F and 2)                        $19,427,318
                   Accounts Receivable, net (note 1D)                                                          837
                   Advances and Prepayments                                                                151,330
            Non-Federal Assets
                   Accounts Receivable, Net (note 1D)                                                      195,795
                   Property, Plant, and Equipment, Net (note 3)                                              9,436
            Total Entity Assets                                                                         19,784,716
     Non-Entity Assets
            Federal Assets
                   Fund Balance with the U.S. Treasury and Cash                                           100,644
            Non-Federal Assets
                   Accounts Receivable, Net                                                                 30,436
                   Interest Receivable, Net                                                                  5,344
     Total Non-Entity Assets                                                                               136,424
TOTAL ASSETS                                                                                           $19,921,140

LIABILITIES
     Liabilities Covered by Budgetary Resources
            Federal Liabilities
                    Accounts Payable                                                                         $563
                    Unearned Revenue                                                                           19
                    Resources Payable to the Treasury                                                      35,780
            Non-Federal Liabilities
                    Accounts Payable (note 4B)                                                           1,869,149
                    Accrued Program Liabilities                                                            106,333
                    Trust and Deposit Liabilities                                                            1,715
     Total Liabilities Covered by Budgetary Resources                                                    2,013,559
     Liabilities Not Covered by Budgetary Resources
            Non-Federal Liabilities
                    Annual Leave and FECA Liabilities (note 1J)                                             13,909
                    Other                                                                                    1,120
     Total Liabilities Not Covered by Budgetary Resources                                                   15,029
TOTAL LIABILITIES                                                                                       $2,028,588

NET POSITION
     Equity of the U.S. Government
                   Unexpended Appropriations (note 5)                                                  $17,898,145
                   Invested Capital (note 5)                                                                 9,436
     Total Equity of the U.S. Government                                                                17,907,581
                   Less Future Financing Sources                                                            15,029
TOTAL NET POSITION                                                                                     $17,892,552

TOTAL LIABILITIES AND NET POSITION                                                                     $19,921,140




                                    The accompanying notes are an integral part of these statements.
USDA/OIG-A/27401-11-HY                                                                                 Page 59
                              UNITED STATES DEPARTMENT OF AGRICULTURE
                                     FOOD AND NUTRITION SERVICE
                              COMBINING STATEMENT OF FINANCIAL POSITION
                                        AS OF SEPTEMBER 30, 1997
                                      (Amounts shown are in thousands)

                                                                                              Child Nutrition
                                                                         Food Program         Healthy Meals     Food Stamps
                                                                         Administration       Homeless and       and Disaster
                                                                         and Non-Entity       Special Milk         Assistance
ASSETS
    Entity Assets
          Federal Assets
                Fund Balance with the U.S. Treasury
                  and Cash (note 1F and 2)                                   $12,259               $2,022,994   $17,006,417
                Accounts Receivable, net (note 1D)                               406                        0           431
                Advances and Prepayments                                           0                   72,221        48,809
          Non-Federal Assets
                Accounts Receivable, Net (note 1D)                                  0                   7,350        187,622
                Property, Plant, and Equipment, Net (note 3)                        0                   2,019          6,454
          Total Entity Assets                                                  12,665               2,104,584     17,249,733
    Non-Entity Assets
          Federal Assets
                Fund Balance with the U.S. Treasury and Cash                 100,644                       0               0
          Non-Federal Assets
                Accounts Receivable, Net                                      30,436                        0             0
                Interest Receivable, Net                                       5,344                        0             0
    Total Non-Entity Assets                                                  136,424                        0             0
TOTAL ASSETS                                                                $149,089               $2,104,584   $17,249,733

LIABILITIES
     Liabilities Covered by Budgetary Resources
           Federal Liabilities
                  Accounts Payable                                              $563                      $0              $0
                  Unearned Revenue                                                  0                     (2)             20
                  Resources Payable to the Treasury                            35,780                      0               0
           Non-Federal Liabilities
                  Accounts Payable (note 4B)                                       0                1,200,112        460,700
                  Accrued Program Liabilities                                103,333                        0          3,000
                  Trust and Deposit Liabilities                                1,715                        0              0
     Total Liabilities Covered by Budgetary Resources                        141,391                1,200,110        463,720
     Liabilities Not Covered by Budgetary Resources
           Non-Federal Liabilities
                  Annual Leave and FECA Liabilities (note 1J)                 13,909                        0             0
                  Other                                                            0                        0           749
     Total Liabilities Not Covered by Budgetary Resources                     13,909                        0           749
TOTAL LIABILITIES                                                            155,300                1,200,110      $464,469

NET POSITION
    Equity of the U.S. Government
                Unexpended Appropriations (note 5)                             $7,698               $902,455    $16,779,559
                Invested Capital (note 5)                                           0                  2,019          6,454
    Total Equity of the U.S. Government                                         7,698                904,474     16,786,013
                Less Future Financing Sources                                  13,909                      0            749
TOTAL NET POSITION                                                            ($6,211)              $904,474    $16,785,264

TOTAL LIABILITIES AND NET POSITION                                           $149,089              $2,104,584   $17,249,733



                                The accompanying notes are an integral part of these statements.                  Page 1 of 2
USDA/OIG-A/27401-11-HY                                                                                           Page 60
                              UNITED STATES DEPARTMENT OF AGRICULTURE
                                     FOOD AND NUTRITION SERVICE
                              COMBINING STATEMENT OF FINANCIAL POSITION
                                        AS OF SEPTEMBER 30, 1997
                                      (Amounts shown are in thousands)


                                                                                                   Commodity
                                                                 Food           Women, Infants     Assistance
                                                                 Donations      and Children       Consolidated      Total
ASSETS
    Entity Assets
          Federal Assets
                Fund Balance with the U.S. Treasury
                  and Cash (note 1F and 2)                   $37,520              $305,135          $42,993       $19,427,318
                Accounts Receivable, net (note 1D)                 0                     0                0               837
                Advances and Prepayments                       4,158                     0           26,142           151,330
          Non-Federal Assets
                Accounts Receivable, Net (note 1D)               554                   269                0           195,795
                Property, Plant, and Equipment, Net (note 3)      38                   887               38             9,436
          Total Entity Assets                                 42,270               306,291           69,173        19,784,716
    Non-Entity Assets
          Federal Assets
                Fund Balance with the U.S. Treasury
                  and Cash                                         0                       0              0          100,644
          Non-Federal Assets
                Accounts Receivable, Net                           0                     0                0            30,436
                Interest Receivable, Net                           0                     0                0             5,344
    Total Non-Entity Assets                                        0                     0                0           136,424
TOTAL ASSETS                                                 $42,720              $306,291          $69,173       $19,921,140

LIABILITIES
     Liabilities Covered by Budgetary Resources
           Federal Liabilities
                  Accounts Payable                                  0                      0              0            $563
                  Unearned Revenue                                  0                      1              0               19
                  Resources Payable to the Treasury                 0                      0              0           35,780
           Non-Federal Liabilities
                  Accounts Payable (note 4B)                   34,901              157,234           16,202         1,869,149
                  Accrued Program Liabilities                       0                    0                0           106,333
                  Trust and Deposit Liabilities                     0                    0                0             1,715
     Total Liabilities Covered by Budgetary Resources          34,901              157,235           16,202         2,013,559
     Liabilities Not Covered by Budgetary Resources
           Non-Federal Liabilities
                  Annual Leave and FECA Liabilities (note 1J)       0                    0                0            13,909
                  Other                                             0                    0              371             1,120
     Total Liabilities Not Covered by Budgetary Resources           0                    0              371            15,029
TOTAL LIABILITIES                                             $34,901             $157,235          $16,573        $2,028,588

NET POSITION
    Equity of the U.S. Government
                Unexpended Appropriations (note 5)                 $7,331         $148,169          $52,933       $17,898,145
                Invested Capital (note 5)                              38              887               38             9,436
    Total Equity of the U.S. Government                             7,369          149,056           52,971        17,907,581
                Less Future Financing Sources                           0                0              371            15,029
TOTAL NET POSITION                                                 $7,369         $149,056          $52,600       $17,892,552

TOTAL LIABILITIES AND NET POSITION                                $42,270         $306,291          $69,173       $19,921,140


                                The accompanying notes are an integral part of these statements.                   Page 2 of 2
USDA/OIG-A/27401-11-HY                                                                                            Page 61
                              UNITED STATES DEPARTMENT OF AGRICULTURE
                                     FOOD AND NUTRITION SERVICE
                              STATEMENT OF OPERATIONS AND NET POSITION
                                        AS OF SEPTEMBER 30, 1997
                                      (Amounts shown are in thousands)


REVENUES
    Interest and Penalties
    a.    Federal                                                                                          $0
    b.    Non-Federal                                                                                   1,282
    Other Revenue                                                                                       3,455
    Less: Taxes and Receipts Transferred to the U.S. Treasury or Other Agency                          (4,737)
    Total Revenues                                                                                          0

OTHER FINANCING SOURCES
    Appropriated Capital Used (note 1M)                                                            30,037,607
    Reimbursements                                                                                     10,122
    Intra-USDA Transfers
    a.    To USDA Agencies                                                                                  0
    b.    From USDA Agencies (note 1E)                                                              5,889,782
    Total Other Financing Sources                                                                  35,937,511

     Total Revenues and Other Financing Sources                                                   $35,937,511

EXPENSES
    Operating Program Expenses (note 8)                                                           $35,807,544
    Provision for Losses                                                                              129,402
    Interest Expense
    a.    Federal                                                                                           0
    b.    Non-Federal                                                                                       7
    Depreciation                                                                                          380
    Other Expenses                                                                                        178
    Total Expenses                                                                                $35,937,511

     Excess (Shortage) of Revenues and Other Financing Sources over Total Expenses
     Before Extraordinary Items and Changes in Accounting Principles                                      $0

     Extraordinary Item                                                                                    0
     Cumulative Effect of change in Accounting Principle                                                   0

     Excess (Shortage) of Revenues and Other Financing Sources over Total Expenses                        $0

STATEMENT OF CHANGES IN NET POSITION

     Net Position, Beginning Balance, as Previously Reported                                      $14,151,031
     Adjustment                                                                                             0
     Net Position, Beginning Balance, as Restated                                                  14,151,031
     Excess (Shortage) of Revenues and Other Financing Sources over Total Expenses                          0
     Financing from Appropriations                                                                          0
     Plus (Minus) Non-Operating changes (note 7)                                                    3,741,521

     Net Position, Ending Balance                                                                 $17,892,552




                               The accompanying notes are an integral part of these statements.
USDA/OIG-A/27401-11-HY                                                                             Page 62
                               UNITED STATES DEPARTMENT OF AGRICULTURE
                                       FOOD AND NUTRITION SERVICE
                           COMBINING STATEMENT OF OPERATIONS AND NET POSITION
                                          AS OF SEPTEMBER 30, 1997
                                        (Amounts shown are in thousands)

                                                                                                     Child Nutrition
                                                                           Food Program              Healthy Meals     Food Stamps
                                                                           Administration            Homeless and      and Disaster
                                                                           and Non-Entity            Special Milk        Assistance
REVENUES
    Interest and Penalties
    a.     Federal                                                                   $0                      $0                 $0
    b.     Non-Federal                                                            1,282                       0                  0
    Other Revenue                                                                 3,455                       0                  0
    Less: Taxes and Receipts Transferred to the U.S. Treasury
       or Other Agency                                                           (4,737)                      0                  0
    Total Revenues                                                                    0                       0                  0

OTHER FINANCING SOURCES
    Appropriated Capital Used (note 1M)                                         106,367               2,908,582         22,893,614
    Reimbursements                                                                  807                       1              9,142
    Intra-USDA Transfers
    a.    To USDA Agencies                                                            0                       0                  0
    b.    From USDA Agencies (note 1E)                                                0               5,433,753                  0
    Total Other Financing Sources                                               107,174               8,342,336         22,902,756

      Total Revenues and Other Financing Sources                               $107,174              $8,342,336        $22,902,756

EXPENSES
    Operating Program Expenses (note 8)                                        $106,759              $8,342,005        $22,776,580
    Provision for Losses                                                              0                     336            126,190
    Interest Expense
    a.     Federal                                                                    0                       0                  0
    b.     Non-Federal                                                                7                       0                  0
    Depreciation                                                                    408                      (6)               (20)
    Other Expenses                                                                    0                       1                  6
    Total Expenses                                                             $107,174              $8,342,336        $22,902,756

      Excess (Shortage) of Revenues and Other Financing
      Sources over Total Expenses Before Extraordinary
      Items and Changes in Accounting Principles                                      $0                    $0                 $0

      Extraordinary Item                                                               0                      0                  0
      Cumulative Effect of change in Accounting Principle                              0                      0                  0

      Excess (Shortage) of Revenues and Other Financing
      Sources over Total Expenses                                                     $0                    $0                 $0

STATEMENT OF CHANGES IN NET POSITION

      Net Position, Beginning Balance, as Previously Reported                   $(8,891)              $601,393         $13,319,597
      Adjustment                                                                      0                      0                   0
      Net Position, Beginning Balance, as Restated                               (8,891)               601,393          13,319,597
      Excess (Shortage) of Revenues and Other Financing
       Sources over Total Expenses                                                    0                      0                   0
      Financing from Appropriations                                                   0                      0                   0
      Plus (Minus) Non-Operating changes (note 7)                                 2,680                303,081           3,465,667
      Net Position, Ending Balance                                              $(6,211)              $904,474         $16,785,264




                                  The accompanying notes are an integral part of these statements.                      Page 1 of 2
USDA/OIG-A/27401-11-HY                                                                                                 Page 63
                          UNITED STATES DEPARTMENT OF AGRICULTURE
                                  FOOD AND NUTRITION SERVICE
                      COMBINING STATEMENT OF OPERATIONS AND NET POSITION
                                     AS OF SEPTEMBER 30, 1997
                                   (Amounts shown are in thousands)

                                                                                                   Commodity
                                                                 Food           Women, Infants     Assistance
                                                                 Donations      and Children       Consolidated       Total
REVENUES
    Interest and Penalties
    a.     Federal                                                        $0                 $0            $0              $0
    b.     Non-Federal                                                     0                  0             0           1,282
    Other Revenue                                                          0                  0             0           3,455
    Less: Taxes and Receipts Transferred to the
      U.S. Treasury or Other Agency                                        0                   0            0          (4,737)
    Total Revenues                                                         0                   0            0               0

OTHER FINANCING SOURCES
    Appropriated Capital Used (note 1M)                             151,937          3,794,323        182,784      30,037,607
    Reimbursements                                                        0                172              0          10,122
    Intra-USDA Transfers
    a.    To USDA Agencies                                                0                  0              0               0
    b.    From USDA Agencies (note 1E)                              456,029                  0              0       5,889,782
    Total Other Financing Sources                                   607,966          3,794,495        182,784      35,937,511

     Total Revenues and Other Financing Sources                   $607,966          $3,794,495       $182,784     $35,937,511

EXPENSES
    Operating Program Expenses (note 8)                           $604,939          $3,794,481       $182,780     $35,807,544
    Provision for Losses                                             3,027                (155)             4         129,402
    Interest Expense
    a.    Federal                                                        0                   0              0               0
    b.    Non-Federal                                                    0                   0              0               7
    Depreciation                                                         0                  (2)             0             380
    Other Expenses                                                       0                 171              0             178
    Total Expenses                                                $607,966          $3,794,495       $182,784     $35,937,511

     Excess (Shortage) of Revenues and Other Financing
     Sources over Total Expenses Before Extraordinary
     Items and Changes in Accounting Principles                           $0                 $0            $0                 $0

     Extraordinary Item                                                    0                   0            0                  0
     Cumulative Effect of change in Accounting Principle                   0                   0            0                  0

     Excess (Shortage) of Revenues and Other Financing
     Sources over Total Expenses                                          $0                 $0            $0                 $0

STATEMENT OF CHANGES IN NET POSITION

     Net Position, Beginning Balance, as Previously Reported        $27,064           $138,090        $73,779     $14,151,031
     Adjustment                                                           0                  0              0               0
     Net Position, Beginning Balance, as Restated                    27,064            138,090         73,779      14,151,031
     Excess (Shortage) of Revenues and Other Financing
      Sources over Total Expenses                                         0                  0              0               0
     Financing from Appropriations                                        0                  0              0               0
     Plus (Minus) Non-Operating changes (note 7)                    (19,695)            10,966        (21,179)      3,741,521
     Net Position, Ending Balance                                    $7,369           $149,056        $52,600     $17,892,552


                                The accompanying notes are an integral part of these statements.                    Page 2 of 2
USDA/OIG-A/27401-11-HY                                                                                             Page 64
                        FOOD AND NUTRITION SERVICE
            FOOTNOTES TO FISCAL YEAR 1997 FINANCIAL STATEMENTS
                  (Amount shown are in thousands exception as noted)

Note 1. Summary of Significant Accounting Policies

A.   Basis of Presentation

     These financial statements have been prepared to report the financial position and results of
     operations of the Food and Nutrition Service (FNS), as required by the Chief Financial
     Officers Act of 1990. They have been prepared from the books and records of FNS in
     accordance with Office of Management and Budget (OMB) Bulletin 94-01, "Form and
     Content of Agency Financial Statements," dated November 16, 1993, however, Footnotes
     no. 2 and no. 5 have been prepared in accordance with OMB Bulletin 97-01. These
     statements have therefore been prepared on an "Other Comprehensive Basis of Accounting."


B.   Reporting Entity

     The Food and Nutrition Service (FNS) was established August 8, 1969, per Secretary’s
     Memorandum No 1659 and Supplement 1 pursuant to the authority contained in 5 U.S.C.
     301 and Reorganization Plan No. 2 of 1953. The agency administers USDA’s five nutrition
     assistance programs: Food Stamp (FS) Program, Child Nutrition (CN) Programs, Special
     Supplemental Food Program for Women, Infants, and Children (WIC), Commodity
     Assistance Program (CAP) as well as Cash and Commodities for Selected Groups (Food
     Donations). These nutrition programs are intended to provide access to a nutritionally
     adequate diet for families and persons with low incomes, and encourage better eating habits
     among the nation’s children. The programs are also intended to help expand markets for
     food produced by American farmers. FNS also administers a food program administration
     appropriation, which provides funds for salaries and administrative expenses.

     FNS is under the jurisdiction of the Under Secretary for Food, Nutrition and Consumer
     Services. FNS is headed by an administrator with overall policy formulated in the FNS
     headquarters in Alexandria, Virginia, and implemented through seven regional offices, 67
     field offices, and 9 satellite locations. State departments of education have responsibility
     for food programs serving children in schools, child care centers, and summer recreation
     centers. State departments of health, welfare, and agriculture usually have responsibility for
     programs providing food stamp benefits or supplemental foods.

C.   Basis of Accounting

     FNS records transactions on an accrual accounting basis and a budgetary basis. Under the
     accrual method, revenues are recognized when earned and expenses are recognized when
     a liability is incurred, without regard to receipt or payment of cash. Budgetary accounting
     facilitates compliance with legal constraints and controls over the use of Federal funds.
     These financial statements include all funds for which the FNS is responsible and are
     intended to comply with accounting principles prescribed by OMB Bulletin 94-01.

USDA/OIG-A/27401-11-HY                                                                    Page 65
D.   Accounts Receivable

     Accounts receivable represent debts owed FNS by individuals, businesses, and state and
     local governments. Accounts receivable represent principally claims against individuals who
     have been overissued food stamp benefits. States are responsible for establishing and
     collecting claims against food stamp recipients. States report quarterly summary information
     to FNS on the status of claims and collection amounts. To encourage aggressive collection
     efforts, the Food Stamp Act of 1977, as amended, permits the states to retain a percentage
     of the amounts collected to certain categories of over-issuances. FNS records these
     collected amounts as they take place. All accounts receivable are shown at net of the
     allowance for doubtful accounts. FNS’ FY 1997 recipient claims gross accounts receivable
     amount was based on certified reports received from the States.

     Because of deficiencies in state food stamp recipient claims reporting systems, FNS adjusts
     the bad debt allowance for food stamp recipient claims at the end of each fiscal year using
     a regression-based statistical model which estimates the net realizable value of future claims
     collections as of the end of the accounting period (i.e., federal fiscal year) based on the
     actual food stamp issuance and net claims collections for prior years. The forecasting model
     draws its predictive power from the strong historical relationship between the level of Food
     Stamp Program benefit issuance and the level of recipient claims collections. Using the
     statistical technique know as generalized least squares, the relationship between Food Stamp
     Program issuance and claims collections can be estimated and then used to project future
     claims collection levels. Estimating the model over the period of FY 1985 through FY
     1997, generates a coefficient of determination of 97.5%. The FY 1997 net collections
     projected by the model at the end of FY 1996 proved to be accurate within 2% of actual FY
     1997 net collections. Because the expected cash flow from collections of such claims
     beyond one year is not expected to be material, FNS does not estimate collections after the
     initial year or discount the estimate produced by the statistical model to its present value.

     This model methodology was used to estimate the allowance for loss and hence the bad debt
     expense. The revision to the allowance for loss accounting estimate has resulted in a
     $125 million dollar increase to the FY 1997 debt expense.

     The allowance for doubtful accounts for all other types of receivables, both entity and
     non-entity is based on historical collection patterns. The analysis in FY 1997 decreased the
     estimate for account receivable allowance for doubtful accounts.




USDA/OIG-A/27401-11-HY                                                                    Page 66
                               ACCOUNTS RECEIVABLE

                          Gross Accounts            Allowance for            Net Accounts
      Category              Receivable               Bad Debts                Receivable

 ENTITY ACCOUNTS RECEIVABLE

 Federal                                  849                       12                     837

 Non-Federal                          973,338                 777,543                 195,795

 Total Entity
 Accounts
 Receivable                           974,187                 777,555                 196,632

 NON-ENTITY ACCOUNTS RECEIVABLE

 Federal                                     0                       0                       0

 Non-Federal                           37,281                    1,501                  35,780

 Total Non-Entity
 Accounts
 Receivable                            37,281                    1,501                  35,780

 Grand Total
 Accounts
 Receivable                         1,011,468                 779,056                 232,412


      In accordance with program regulations, states are required to establish a “continuing
      performance reporting system” to monitor the Food Stamp Program. The Quality Control
      (QC) system is part of this effort and serves as a control for FNS' monitoring of
      certifications performed by state eligibility workers and to control program waste. At the
      end of the fiscal year each state agency's food stamp payment error rate is computed and
      compared to the error rate established by goals. If the state agency's error rate is in
      excess of goals, FNS will establish a QC liability. FNS initiates collection actions on the
      QC claims before the end of the fiscal year. However, as part of the QC reinvestment
      program, FNS can allow a state to invest in program improvements as an alternative to
      paying QC liabilities. Also, through the administrative appeals process, state agency's can
      appeal claims brought against the state agency to waive all or a portion of the claim. The
      Office of General counsel (OGC) has determined that it would not be appropriate to issue
      bills to state agencies with unresolved QC liabilities.

      Consequently, FNS does not include QC liabilities in the accounts receivable until FNS
      has legal claim to the account receivable.


USDA/OIG-A/27401-11-HY                                                                  Page 67
      FNS does not receive information on QC liabilities for approximately 9 months after the
      end of the fiscal year. Therefore, current information on QC liabilities is not available
      for the FY 1997 financial statements. However, during Fiscal Years 1992-1996 there
      were 25 states that had QC liabilities amounting to $405,719. However, FNS waived
      $270,333 of these QC liabilities and reached settlement agreements in the amount of
      $135,386. Also, during this period upfront reinvestments amounted to $34,961. As of
      the FY 1997 financial statement audit the remaining $100,425 of the settlement agreement
      amount is considered contingent reinvestment.

E.   Recognition of Financing Sources

      FNS receives the majority of the funding it needs to support its programs through annual
      and multi-year appropriations. FNS also receives transfers of appropriated funds from
      two other Department of Agriculture bureaus, the Agricultural Marketing Service and the
      Farm Service Agency. (See Note 6, "Donated Commodities," for amounts transferred this
      fiscal year.) In addition, FNS receives transfers of food commodities which it donates
      to states for distribution to schools and other approved recipients. (See Note 6 for a
      description of current year donated commodities sources and amounts.) FNS uses these
      appropriations and transfers to fund operating expenses such as grants to states, as well
      as to fund other types of program expenditures for food stamp benefits and other types
      of food assistance.

      FNS recognizes appropriations as revenues at the time they are used to pay program or
      administrative expenses. FNS recognizes appropriations expended for capitalized property
      or equipment as expenses when the assets are consumed in operations.

      At the time grant awards are established, FNS records obligations for the full amount of
      expected program expenses as undelivered orders. Reductions in obligations occur as
      expenses are incurred by grantees. At year-end, the unused portions of grant awards are
      reclassified as unobligated balances and are shown on the statement of financial position
      as part of unexpended appropriations. Unobligated balances available for future periods
      are also shown as unexpended appropriations.

      "Advances and Prepayments" represents advances to the Farm Service Agency for
      commodity purchases.

F.    Funds with U. S. Treasury

      FNS changed from the HHS Smartlink Payment Management System to the Treasury
      Automated Application for Payment System (ASAP). Commencing August 1995 FNS
      converted, on a state by state basis, all recipients which previously drew funds via HHS's
      LOC System to Treasury's ASAP system. As of September 30, 1997, all state agencies
      and Indian Tribal Organizations (ITO's) were converted to ASAP and are now drawing
      federal funds through Treasury's system.


USDA/OIG-A/27401-11-HY                                                                 Page 68
      FNS contracted with FRB, Richmond to serve as Account Management Agent (AMA) for
      operating the AMA system for electronic processing of Food Stamp Benefits through
      electronics benefit transfers (EBT). As the Account Management Agent, FRB, Richmond
      will monitor the operation of the AMA system. The state EBT contractor, known as
      processors report issuances to AMA. Obligations are incurred based on the issuances
      reflected in AMA and are passed to FNS' accounting system. Retailers are reimbursed
      for settlement amounts, which are also passed to the core accounting system.

      Funds with U. S. Treasury consist of all unexpended balances on FNS accounts with the
      U.S. Treasury. As of September 30, 1997, the total outstanding fund balance was
      $19,527,962. Of this amount, $19,427,318 are entity funds, and $100,644 are classified
      as non-entity funds. The chart in Note 2, " Fund Balances with U.S. Treasury and Cash,"
      reflects the status of the fund balance account.

G.    Grants

      FNS grant programs provide funds to states through a letter of credit process. This
      process allows the grantees to draw on established credit balances, as needed, to pay
      expenses associated with their grants. It also allows the federal government to hold funds
      until the grantees need the funds to pay program expenses. Each of FNS’ regions is
      responsible for awarding and managing grants. In addition, the FNS regions authorize
      and monitor letters of credit cash needs. On a selective basis, FNS visits grantees and
      reviews the supporting data for the expenditure reports. In addition, FNS relies on audits
      of grantees performed by the USDA Office of Inspector General and independent auditors
      under the Single Audit Act, as amended.

H.    Liability for Unredeemed Food Coupons

      Food coupons are legal obligation instruments of the U.S. Government. FNS records a
      liability and related expense when notified by state agencies that they have issued
      coupons to recipients and records a reduction in liability when notified by the Federal
      Reserve Banks that they have redeemed coupons. The agency does not record in its
      general ledger or present on its financial statements a liability for the value of unissued
      food coupons which are carried as inventory by state agencies or by food coupon printers
      or which are in transit from printers to state inventory sites at the end of the reporting
      period. Those entities are responsible for maintaining coupon inventories in accordance
      with regulations and must indemnify FNS if inventory losses occur (see Note 4.C,
      "Commitments: Unredeemed and Unissued Food Coupons"). FNS records food coupon
      liabilities through monthly transfers of funds from the annual food stamp appropriation
      to the food stamp liability account, which is the account the Federal Reserve Banks
      charge as they redeem food coupons through the banking system. The balance in the
      food stamp liability account represents the value of unredeemed food coupons in the
      economy which are likely to be redeemed.




USDA/OIG-A/27401-11-HY                                                                  Page 69
I.    Inventories

      FNS’ inventories are comprised of small amounts of supplies that will be consumed in
      future operations and a non-material amount of food commodities not held for sale.
      Inventory is received and distributed using the first in/first out (FIFO) method to assure
      that the oldest product is used first. The inventory value represents the product held in
      storage based on the semi-annual physical count, with appropriate adjustments.

      The food commodities represent items purchased with FNS appropriations and held for
      donation to states by the Farm Service Agency.       The expenditures or expenses for
      product held in inventory are recognized for a specific program when the product is
      delivered to the state distributing agency. In accordance with USDA policy, FNS
      establishes a 100% allowance for loss on inventories held for donation at year end.
      Therefore, this item has a carrying value of zero and does not appear on the Statement
      of Financial Position.

J.    Annual, Sick, and Other Leave

      Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each
      year, the balance in the accrued annual leave account is adjusted to reflect current pay
      rates. To the extent that current or prior year appropriations are not available to fund
      annual leave earned but not taken, funding will be obtained from future financing sources.
      Sick leave and other types of nonvested leave are expensed as taken.

K.    Retirement Plan

      FNS employees participate in both the Civil Service Retirement System (CSRS) and the
      Federal Employees Retirement System (FERS). FNS makes matching contributions to
      the CSRS plan equal to 7 percent of pay, while contributions to the FERS plan are 11.4
      percent of pay. For most employees hired since December 31, 1983, FNS also
      contributes the employer’s matching share for Social Security. FERS went into effect
      pursuant to Public Law 99-335 on January 1, 1987. Most employees hired after
      December 31, 1983, are automatically covered by FERS and Social Security. A primary
      feature of FERS is that it offers a savings plan to which FNS automatically contributes
      1 percent of pay and matches any employee contribution up to an additional 4 percent of
      pay. FNS makes these and other contributions to employee retirement plans as shown
      in the following table:




USDA/OIG-A/27401-11-HY                                                                 Page 70
                 FNS RETIREMENT CONTRIBUTIONS FOR FY 1997

               Type of Contribution                                   Amount

 CSRS contributions                                                                    3,485

 Transitional retirement contribution-Civil Service                                      179

 FERS regular contributions                                                            3,446

 Thrift Savings Plan basic government contribution                                       297

 TSP Matching contribution                                                             1,014

 Special Retirement Contribution (early out)                                             127

      TOTAL                                                                            8,548


      These contributions are reported as expenses in the Statement of Operations. FNS does
      not report CSRS and FERS assets, accumulated plan benefits, or unfunded liabilities, if
      any, applicable to its employees. Reporting such amounts is the responsibility of the
      Office of Personnel Management’s Federal Retirement System.

L.    Contingencies

      FNS is a party in various administrative proceedings, legal actions, and claims brought
      by or against it. In the opinion of FNS management and the Department of Agriculture’s
      legal counsel, the ultimate resolution of these proceedings, actions, and claims will not
      materially affect FNS’ financial position or results of operations for the current fiscal
      year.

M.    Appropriations Expensed

      Appropriations expensed is the amount of appropriations used during the current period
      to fund FNS’ nutrition programs. This includes the food program administration (FPA)
      appropriation, which provides funds for salaries and administrative expenses.




USDA/OIG-A/27401-11-HY                                                                Page 71
Note 2. Fund Balances with U.S. Treasury and Cash


               FUND BALANCES WITH THE U.S. TREASURY AND CASH

     Fund Balances
     with Treasury:           Entity Assets         Non-Entity Assets            Total

 Trust Funds                                  0                        0                     0

 Revolving Funds                              0                        0                     0

 Appropriated Funds                 19,427,318                         0           19,427,318

 Other Fund Types                             0                  1,715                    1,715

 Other Fund Types:
 Food Stamp
 Redemption                                   0                 98,929                   98,929

 Subtotal                           19,427,318                 100,644             19,527,962

 Cash                                         0                        0                     0

 Total                              19,427,318                 100,644             19,527,962


Note 3. Property, Plant, and Equipment, Net

         Property and equipment are depreciated over their useful economic lives, which average
         5-10 years, using the straight-line method. FNS owns no buildings or land. At year end,
         balances for Property, Plant, and Equipment were as follows:


                          PROPERTY, PLANT AND EQUIPMENT

           Classes of              Acquisition          Accumulated
          Fixed Assets               Value              Depreciation        Net Book Value

 Furniture and Equipment                   23,322                 13,887                  9,435


Note 4. Commitments

A.       Undelivered Orders

         FNS is committed under obligations it has incurred as of the fiscal year for goods and
         services which have been ordered but not yet received (undelivered orders). Aggregate
         undelivered orders amounted to $311,474 at year’s end.

USDA/OIG-A/27401-11-HY                                                                   Page 72
                                   UNDELIVERED ORDERS

                       Type                                           Amount

 Advances                                                                                151,331

 Contracts and Other                                                                     155,401

 FPA                                                                                       4,742

 Total                                                                                   311,474


B.       Accounts Payable

         The "Accounts Payable, Non-Federal" includes amounts for accounts payable at year’s
         end for all grant programs and for food stamp benefits. The food stamp benefits payables
         include amounts for food coupon benefits, electronic benefits transfers (EBT), and food
         coupon shipping and printing.

         FNS must estimate the accounts payable for current year grant obligations (other than
         obligations for coupon and EBT food stamp benefits) using a statistical model. This is
         because FNS does not know the exact amount needed by its grantees until the grant close
         out process is completed, which does not occur for 3-9 months after the end of the fiscal
         year, depending on the type of grant. At the end of the fiscal year, accounts payable and
         related obligations were adjusted downward by $271,617. This is the amount
         representative of the funds which will not be used by the grantees and will be deobligated
         as part of the grant close out process the following fiscal year. The downward adjustment
         made to the current period accounts payable is based upon the historical relationship
         between initial (September 30) grant account balances and the final grant account
         balances produced through the closeout process. Adjustments are made on an account
         specific basis. Each adjustment factor is based on an analysis of the most recent five
         years of account data. In this analysis, the initial (September 30) grant account balances
         and the final grant account balances were compared. A downward adjustment factor was
         calculated for each account and each year. Average factors, over the five years in the
         data set, were developed for each account. These average factors are then the basis for
         the adjustments to the current period accounts. Analysis of this estimating methodology
         indicates that, in aggregate, the projection will be accurate within 1.00%.

C.       Unredeemed and Unissued Food Coupons

         As discussed in Note 1.H, "Summary of Significant Accounting Policies: Liability for
         Unredeemed Food Coupons," FNS records a liability for the value of issued food
         coupons. FNS is also contingently liable for the value of all food coupons which have
         been produced but not yet issued. The value of food coupons in inventory at year end was
         $10,035,597. This includes $333,780 in unissued and unredeemed 1998 series coupons.
         Such food coupons are under the control of the companies which produce, distribute, and

USDA/OIG-A/27401-11-HY                                                                    Page 73
      transport the coupons, as well as the states who control the inventories of food coupons
      available for issuance. Although FNS is indemnified for unaccounted food coupons by
      these companies, FNS must honor all redeemed food coupons. The Food Stamp Program
      is administered primarily by the states, in accordance with federal regulations. Monthly
      food coupon allotments are computed by the states’ department of human services using
      standards for eligibility promulgated by FNS.

      To assure that the supplies of food coupons are sufficient to meet monthly issuance
      amounts, states maintain several months’ supply of food coupons in inventory. As
      participants in the administration of the food stamp program, states are responsible for the
      value of food coupons held under their control. State officials may manage inventory
      points directly or may enlist the services of private companies to provide storage and
      transportation services. Private companies indemnify the states and FNS against the value
      of any lost coupons. States regularly report inventory balances, issuance amounts, and
      transfer and shipping information to FNS regional offices. FNS regional offices routinely
      review state operations to assure that food coupons are adequately safeguarded and that
      the food stamp program is properly managed. In addition to state oversight by FNS
      Regional Offices, FNS maintains additional oversight operations to assure that the food
      stamp program is operating in compliance with relevant laws and regulations. For
      example, FNS compliance branch personnel review retailers participating in the food
      stamp program to determine that only eligible food items are exchanged for food coupons.

      Food coupons are produced by one or more independent printing companies under
      contract with FNS. Throughout the production and shipment process, all food coupons are
      the responsibility of the printing, distribution, and shipping companies. FNS authorizes
      all production amounts and directly oversees the production process to assure that quality
      production standards are met and that all authorized food coupons are adequately
      accounted for and safeguarded. FNS relies on the cooperation of retailers, commercial
      banks, and the Federal Reserve Banks to adequately control the process for redeeming
      negotiated food coupons. FNS policies require retailers and commercial banks to cancel
      food coupons upon receipt to guard against food coupons being redeemed more than once.
      Federal Reserve Banks additionally cancel all food coupons that have been presented by
      commercial banks. All coupons presented by commercial banks to the Federal Reserve
      Banks are counted for accuracy, inspected for authenticity, and destroyed to prevent
      recirculation through the banking system.




USDA/OIG-A/27401-11-HY                                                                   Page 74
D.     Other Liabilities


                                   OTHER LIABILITIES

     Description                Current               Non-Current                 Total

 Other funded
 liabilities,
 non-Federal                                  0                       0                       0

 Total funded
 liabilities,
 non-Federal                                  0                       0                       0

 Other funded
 liabilities, Federal                         0                       0                       0

 Total Liabilities
 covered by
 budgetary resources                          0                       0                       0

 Canceled Year
 Account Payables                             0                   1,120                    1,120

 Total Liabilities not
 covered by
 budgetary resources                          0                       0                       0

 Grand Total other
 liabilities                                  0                   1,120                    1,120


Note 5. Equity of the U.S. Government and Net Position

       Equity of the U.S. Government consists of unexpended appropriations, invested capital,
       and the cumulative results of operations. "Unexpended Appropriations" include the
       undelivered orders and unobligated balances of the FNS appropriated funds. "Invested
       Capital" includes the net book value of FNS’ capitalized property and equipment.

       Obligations and advances of appropriated funds are recorded as undelivered orders.
       Undelivered orders amounted to $311,474 for the current year; of this amount, advances
       totaled $151,331. Undelivered orders are relieved by either an expenditure or an
       obligation cancellation. Appropriated funds which are not obligated are included in the
       Unexpended Appropriations on the Statement of Financial Position; these totaled
       $17,898,145 as of the end of the fiscal year. At the end of the fiscal year, certain multi-
       year appropriations which have unobligated balances remained available to FNS for


USDA/OIG-A/27401-11-HY                                                                    Page 75
         obligations in future periods. Unobligated appropriations are available for obligational
         authority for a particular appropriation year until that appropriation is canceled.


               EQUITY OF THE U.S. GOVERNMENT AND NET POSITION

                                    Revolving     Trust      Appropriated
              Category               Funds        Funds         Funds               Totals

    A. Unexpended
      Appropriations:

      (1) Unobligated

         (a) Available                        0         0           812,190            812,190

         (b) Unavailable1                     0         0        16,774,482         16,774,482

       (2) Undelivered orders                 0         0           311,474            311,474

       (3) Invested Capital                   0         0              9,435             9,435

    Total Equity                              0         0        17,907,581         17,907,581

    Future Funding Requirements               0         0            15,029             15,029

    Total Net Position                        0         0        17,892,552         17,892,552

1
  Beginning in fiscal year 1991, Congress has appropriated a reserve as part of the annual one-
year food stamp appropriation. These funds are available for use only in the year appropriated,
but remain available for legitimate obligations of the period and are considered part of
unexpended appropriations. The following table shows the amount of food stamp appropriation
reserve by fiscal year:




USDA/OIG-A/27401-11-HY                                                                  Page 76
                 FOOD STAMP APPROPRIATION RESERVE FUNDING

        Fiscal Year                Total Reserve Amount            Unused Reserve Amount

            1992                                     1,500,000                                0

            1993                                     2,500,000                       2,500,000

            1994                                     2,500,000                       2,500,000

            1995                                     2,500,000                       2,500,000

            1996                                       500,000                         500,000

            1997                                       100,000                         100,000

            Total                                    9,600,000                       8,100,000


Note 6. Donated Commodities

      During the fiscal year, FNS distributed over $916 million in commodities, primarily
      through its CN programs, Commodity Assistance Programs, the Food Distribution
      Program on Indian Reservations, and the Nutrition Program for the Elderly. FNS acquires
      these commodities by purchase, using its own appropriations, and by intra-departmental
      transfer at no charge to FNS from FSA and AMS. These commodities are an integral
      part of FNS’ mission and programs. Generally accepted accounting principles and OMB
      Bulletin 94-01 require that the entire cost of these commodities and their related financing
      sources be recognized. Therefore, the current year statements recognize the transfer of
      food commodities and the related expense of $456,029. FNS also received $5.4 billion
      from AMS as appropriation authority to fund the CN Programs. At year end,
      commodities in inventory totaled $14,845.

      The following schedule provides details on the estimated commodities distributed by FNS
      by source and program for the current fiscal year:


                   FOOD AND NUTRITION SERVICE
          COMMODITIES DISTRIBUTED BY SOURCE AND PROGRAM

             Transferred from                        Purchased by                 Total

        AMS                      FSA                      FNS

       454,957                  1,072                   460,443                  916,472




USDA/OIG-A/27401-11-HY                                                                    Page 77
       Although overall authority to distribute these commodities to eligible recipients rests with
       FNS, FNS delegates this responsibility to the state and local governments, which are
       required to maintain complete and accurate records on the receipt, disposal, and inventory
       of the commodities and to provide FNS with monthly inventory reports. However, legal
       title to these commodities passes when the commodities have been delivered to states.

Note 7. Non-Operating Changes

       The amount reflected on the Statement of Operations and on the table below represents
       the change in the account balance from the previous year for the items listed.


                               NON-OPERATING CHANGES

                    Category                                          Amount

 A. Increases:

     (1) Transfers-In:

        (a) Net change in unexpended balances                                         3,742,485

     (2) Invested Capital                                                                    694

        Total Increases                                                               3,743,179

 B. Decreases:

     (1) Transfers-Out

        (a) Future Financing Sources                                                       1,658

      (2) Other decreases                                                                      0

         Total Decreases                                                                   1,658

 C. Net Operating Changes                                                             3,741,521


       D.    Other Information: Beginning in fiscal year 1991, Congress has appropriated a
             reserve as part of the annual one-year food stamp appropriation. These funds are
             available for use only in the year appropriated, but remain available for obligation
             and are considered part of unexpended appropriations. As of the end of FY 1997,
             $.1 billion of the amount reported on line A.(1)(a), "Net change in unexpended
             balances," represents food stamp appropriation reserve. See Note 5, "Equity of
             the U.S. Government," for more information about the food stamp appropriation
             reserve.
Note 8: Operating/Program Expense


USDA/OIG-A/27401-11-HY                                                                    Page 78
      The following table presents "Operating/Program Expenses" by OMB object classification.
      This categorization of operating/program expense does not include those items listed
      separately on the financial statements.


              OPERATING PROGRAM EXPENSE BY OBJECT CLASS

            Object Classification                                Amount

 Personnel Services and Benefits                                                   115,621

 Travel and Transportation                                                           5,102

 Rent, Communications, and Utilities                                                 2,281

 Printing and Reproduction                                                          22,336

 Supplies and Materials                                                            474,551

 Equipment Not Capitalized                                                           1,119

 Grants, Subsidies, and Contributions                                           35,148,109

 State Option Food Stamp Program                                                     4,681

 Insurance Claims and Indemnities                                                         0

      SUBTOTAL                                                                  35,773,800

 Other Services                                                                     33,744

      TOTAL                                                                     35,807,544




USDA/OIG-A/27401-11-HY                                                              Page 79
